<html>
<title> - THE STATE OF PLAY: GLOBALIZED CORRUPTION, STATE-RUN DOPING, AND INTERNATIONAL SPORT</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






               THE STATE OF PLAY: GLOBALIZED CORRUPTION,
               STATE-RUN DOPING, AND INTERNATIONAL SPORT
=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2018

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-2-5]






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                       Available via www.csce.gov

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-972PDF                WASHINGTON : 2018                 




















            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    ROGER F. WICKER, Mississippi, 
Co-Chairman                          Chairman
ALCEE L. HASTINGS, Florida           BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama          JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas            CORY GARDNER, Colorado
STEVE COHEN, Tennessee               MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina       JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois             THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas            TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                SHELDON WHITEHOUSE, Rhode Island

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii] 
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                     THE STATE OF PLAY: GLOBALIZED  
                     CORRUPTION, STATE-RUN DOPING,   
                        AND INTERNATIONAL SPORT 

                              ----------                              

                             July 25, 2018
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     1

Hon. Michael C. Burgess, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     6

Hon. Christopher H. Smith, Co-Chairman, Commission on Security 
  and Cooperation in Europe......................................     9

Hon. Sheila Jackson Lee, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    16

                               WITNESSES

Travis Tygart, CEO, U.S. Anti-Doping Agency......................     3

Katie Uhlaender, U.S. Olympian...................................     4

Yuliya Stepanova, former Russian Olympian and anti-doping 
  whistleblower..................................................    11

Dagmar Freitag, Chairwoman, Sports Committee of the German 
  Bundestag......................................................    13

Jim Walden, Partner, Walden Macht & Haran LLP; attorney for Dr. 
  Grigory Rodchenkov.............................................    14

                                APPENDIX

Prepared statement of Hon. Michael C. Burgess....................    33

Prepared statement of Hon. Christopher Smith.....................    36

Prepared statement of Hon. Benjamin L. Cardin....................    38

Prepared statement of Hon. Sheila Jackson Lee....................    40

Prepared statement of Travis Tygart..............................    42

Prepared statement of Katie Uhlaender............................    47

Prepared statement of Yuliya Stepanova...........................    50

Prepared statement of Dagmar Freitag.............................    53

Prepared statement of Jim Walden.................................    56

 
                     THE STATE OF PLAY: GLOBALIZED 
                     CORRUPTION, STATE-RUN DOPING, 
                        AND INTERNATIONAL SPORT 

                              ----------                              


                             July 25, 2018

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2:12 p.m. in Room 562, Dirksen 
Senate Office Building, Washington, DC, Hon. Michael C. 
Burgess, Commissioner, Commission on Security and Cooperation 
in Europe, presiding.
    Commissioners present:  Hon. Benjamin L. Cardin, Ranking 
Member, Commission on Security and Cooperation in Europe; Hon. 
Michael C. Burgess, Commissioner, Commission on Security and 
Cooperation in Europe; Hon. Christopher H. Smith, Co-Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Sheila Jackson Lee, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present:  Travis Tygart, CEO, U.S. Anti-Doping 
Agency; Katie Uhlaender, U.S. Olympian; Yuliya Stepanova, 
former Russian Olympian and Anti-doping whistleblower; Dagmar 
Freitag, Chairwoman, Sports Committee of the German Bundestag; 
and Jim Walden, Partner, Walden Macht & Haran LLP; attorney for 
Dr. Grigory Rodchenkov.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. [Sounds gavel.] Let me welcome you to this 
Helsinki hearing on ``The State of Play: Globalized Corruption, 
State-Run Doping, and International Sport.''
    On behalf of Senator Wicker, our chairman, Dr. Burgess is 
going to be chairing the hearing. The House is a little late 
getting here. I'm going to apologize in the beginning. This is 
an extremely important hearing, but unknown to us when this 
hearing was scheduled, the House has votes scheduled now. Of 
course, they're trying to adjourn tomorrow until September. The 
Senate is nowhere near as fortunate; we'll be here forever. But 
we have votes scheduled at 2:30. And then the Senate Foreign 
Relations Committee, which I serve on, is holding a hearing 
with Secretary of State Pompeo. It's our first opportunity of 
any congressional committee to question the Trump 
administration on the Helsinki summit with Mr. Putin and the 
Singapore summit with Kim Jong-un. So, there's a lot going on 
today, and that's just an apology to tell you that there may be 
some interruptions in our hearing, and we apologize for that. 
But we wanted you to know that this is an extremely important 
hearing.
    What happened in regards to the doping should not be a 
surprise to any of us. It comes right out of Mr. Putin's 
playbook. Six months ago, I authored a report on behalf of the 
Senate Foreign Relations Committee in regards to Mr. Putin's 
asymmetrical-arsenal attack against democratic institutions. It 
went through a whole host of tools that are used by Mr. Putin, 
including the weaponization of corruption, which is exactly 
what we saw in the doping issue. We know that Mr. Putin is 
interested in winning the battle on form of government. His 
main target is Europe, but he's also been very active in the 
United States.
    But what is less understood is that he uses these weapons 
against his own people in order to be able to get the type of 
support that he has within the Russian Government. And we saw 
that very clearly in regards to the Sochi Olympics. His 
popularity before the Sochi Olympics was approximately 54 
percent, and it soared to 83 percent after Russia won the most 
medals. So clearly this was not done by legitimate methods.
    What we need to do to counter what Mr. Putin is doing is in 
the report I authored. We need a greater defense against 
misinformation. We've got to watch the social media. We've got 
to diversify our energy sources. We have to not only enforce 
our sanctions but look at stronger sanctions against Russia. 
And we need to support those brave people who are the partisans 
in Russia that stand up to this type of activity.
    That's why we are so pleased to recognize those that have 
been on the forefront of standing up to Mr. Putin. I, along 
with Senator McCain, the authors of the Sergei Magnitsky law--
Sergei Magnitsky to many of us is a hero. He stood up to 
corruption in Russia, representing a client, doing what any 
lawyer should do when he discovers corruption: advising the 
public, advising the authorities. As a result, as you all know, 
he was arrested, tortured, and killed. We passed, with a lot of 
leadership through this committee, the Sergei Magnitsky law--
first toward Russia, but later globally, to recognize the 
strength of one individual, but recognizing that we need to act 
against those who violate basic human rights.
    Whistleblowers in Russia are the true patriots of Russia, 
and we want you all to know that. I had the opportunity to meet 
with Dr. Grigory Rodchenkov when he was here in Washington to 
hear firsthand about his efforts in regards to exposing the 
doping scheme, and how he discovered it, and what he tried to 
do about it, and how they tried to engage him. We certainly 
want to welcome all of the witnesses, but I particularly want 
to thank Ms. Stepanova for being here today. You are a brave 
person, and we thank you very much, and you do represent what 
the Russian people need today.
    So we welcome all of our witnesses and we look forward to 
your testimony.
    And, with that, I will start with Mr. Travis Tygart, you 
are our first witness. I should have some introduction for you. 
Mr. Tygart is the CEO of the U.S. Anti-Doping Agency. We 
welcome and look forward to your testimony.

          TRAVIS TYGART, CEO, U.S. ANTI-DOPING AGENCY

    Mr. Tygart. Thank you, Senator, and good afternoon to you 
as well. My name is Travis Tygart, as you've just said, and I'm 
the CEO at the U.S. Anti-Doping Agency, or what is commonly 
known as USADA. I want to thank you, but also the other members 
of the commission, for their interest in clean sport and for 
the opportunity to testify here today.
    We have arrived, as you noted, at a critical juncture for 
the soul of sport. Fairness and integrity in athletic 
competition--two principles at the very heart of why we play--
hang in the balance. They've been abused and they are currently 
under attack.
    You're going to hear from Yulia, who with powerful dreams 
coupled with a nugget of the truth, did the unimaginable by 
standing up to Russian thugs and the corruption of sport in her 
country. Yulia, like Dr. Grigory Rodchenkov, should be thanked 
and recognized for their sacrifice for fair play, the rule of 
law, literally at the risk of their own lives.
    You will also hear about the crushed dreams from American 
skeleton athlete Katie Uhlaender, an innocent victim of this 
morally bankrupt Russian scheme. Athletes like Yulia and Katie, 
and their powerful stories, are our guiding light. They're our 
North Star. Their stories give us hope, they remind us of our 
purpose, and they provide us the fuel to continue to fight.
    Sport is under attack because of the astounding lengths to 
which Russia's corrupt system went to deceive and defraud the 
world. You've heard the facts: shadow laboratories; tampering 
with bottles; and then cyberattacks to smear innocent athletes, 
including U.S. athletes, by Russia's intelligence officers; 
swapped samples; directives from the sport minister's office 
deciding which athletes who doped would be protected.
    Unfortunately, when the moment of truth came to confront 
this fraud, the International Olympic Committee chose not to 
stand up for clean athletes and against institutionalized 
doping. The IOC missed or ignored a defining moment to confront 
in the clearest way possible the win-at-all-costs behavior that 
Russia has perpetrated.
    Despite this, however, two silver linings have emerged. 
First, athletes are mobilizing for clean sport like never 
before. Frankly, we wish more corporations--both sponsors and 
broadcasters--that profit off of athletes and from these 
competitions would stand up and speak out. Seriously, where are 
they? Why aren't they here testifying today?
    Second, we have a once-in-a-lifetime opportunity to disrupt 
entrenched positions for the good to make sure that this kind 
of thuggery is never again allowed to rear its ugly head. To 
us, it all starts with independence. I've had the privilege to 
speak to Congress a few times before about the elements of an 
effective program, one to actually win the battle for clean 
athletes, not just for sport brand purposes. In the U.S. and in 
many countries around the globe, these key elements are part of 
the program: year-round testing, no advanced notice, out-of-
competition testing, conducting robust intelligence gathering 
and partnerships on investigations with law enforcement. They 
have proved successful.
    We have long advocated for a clear separation between those 
who promote sport and those who police sport. To do so is to 
have the fox guard the henhouse. You simply can't both promote 
and police. This matter of independence is the most important 
issue, we think, facing global sports and anti-doping today.
    The good news is that WADA's failed governance model, the 
global body overseeing sport, could be fixed immediately by 
simply removing the sport leaders from the executive functions 
from WADA's leadership. Basically, take the blindfolds off, 
take the handcuffs off, and let the global regulator--the 
watchdog--actually grow teeth and use them. At least 37 
national anti-doping organizations like USADA around the world 
support specific proposals to fix these problems, and they're 
outlined in the Copenhagen Reform Declaration. And they include 
independence; confirming WADA's ability to investigate, 
sanction, and monitor compliance; significant and meaningful 
recognition of athletes who have lost medals to doped athletes; 
and increased support and protection for whistleblowers.
    The Russian corruption, and sport's failure to do the right 
thing when it mattered and had the chance to do it, is what has 
directly led us here today. And it is, frankly, time for us all 
who value these principles of fair play to fight back.
    We wholeheartedly support the goal of ensuring corrupt 
organizations or corrupt governments, like we saw in this 
sordid affair, that defraud athletic competitions never happens 
again, and ensuring protection for truthful whistleblowers. 
Several of these concepts are in the legislation that is before 
us. Additionally, we are also ready to assist to help ensure 
any legislation that is ultimately passed is precise, 
effective, and ultimately successful to protect clean athletes' 
rights.
    Senator, members of the committee, for those of us who 
value the rights of clean athletes and the preservation of a 
fair, safe, and healthy playing field, this is the moment. And 
it's not just a moment about elite Olympic athletes, but about 
every kid on a playground who has an Olympic dream and asks, 
what do I have to do to make my dream come true? The truth is, 
if we don't push, if we don't win, we will likely find 
ourselves back in this same position a few years from now, 
staring another state-supported doping system in the face--one 
that has abused its athletes and robbed another generation of 
clean athletes from what is rightfully theirs. I think we'll 
all be wondering at that point why didn't we do more today when 
we had the chance.
    Thank you.
    Mr. Cardin. I thank you very much for your testimony.
    Katie Uhlaender, who is a four-time Olympian, world 
champion, two-time World Cup champion, six-time world champion 
medalist, 11-time World Cup gold medalist, and holds a total of 
22 World Cup career medals for the sport of skeleton. 
Congratulations on your achievement.

                 KATIE UHLAENDER, U.S. OLYMPIAN

    Ms. Uhlaender. Thank you, sir. Yes, the only medal I'm 
missing is the one we're going to discuss today. [Laughter.]
    Thank you for the opportunity to be here. It's inspiring to 
know that the leaders of our nation have not given up on 
protecting athlete rights.
    I've dedicated my life to running headfirst onto a sled 80 
miles an hour, hurtling down an icy chute with my chin just a 
couple inches off the ice, proudly wearing USA on my uniform.
    I've competed holding personal growth, integrity, and 
character at the forefront of my goals and duties as an 
Olympian. I learned these things from my father, who was a 
Major League Baseball player. In the 1972 World Series against 
the Oakland A's he was presented with the opportunity to take 
performance-enhancing drugs and he told me his response was: If 
you're at your best, it's enough.
    The lesson to me was whatever path I chose in life should 
be something of pure grit and all I had to offer. Excuses 
should never get in the way of success, and your heart in the 
effort will define you. The effort, integrity, and how I pursue 
excellence are worth more than the results or the career I 
choose. I chose to be an athlete like my father, which actively 
delayed my education, finding a home or a career. But my 
decision to be an Olympian was one that I saw challenging my 
growth, giving me inspiration that was also an opportunity to 
inspire those around me. It's a noble path that allows iron to 
sharpen iron, and one that I believe honors my father's legacy, 
what he taught me, my country, and God. And giving the Olympic 
movement all I have is the way to do that.
    Sport is a space in which all races, political parties, and 
nations come together. The Olympics hold their participants to 
a higher standard than any other place, and I'm an ambassador 
for my country and for that movement that touches the world.
    I'm not government funded. [Laughs.] I don't have any 
sponsorship. There's very little money to be made essentially 
racing a super-fast American Flyer down an icy chute. [Laughs.]
    None of the challenges I've faced have deterred me from my 
dream or grit. It's a privilege to compete for the United 
States.
    The dream, though, was to one day stand on the podium--
sorry, it's emotional----
    Mr. Cardin. That's all right.
    Ms. Uhlaender.----to see my country's flag raised, and be 
able to say thank you to the people that supported me and 
helped me get there, the people that believe in pursuing 
excellence over glory.
    But my moment was stolen--oh my goodness, sorry----
    Mr. Cardin. Take your time.
    Ms. Uhlaender. The glory was in my effort, and I truly 
believe that medal is not mine. My joy is to get to put my best 
steps forward. The medal was America's.
    I fell short of that opportunity in Sochi at the Olympics. 
I missed it by four-hundredths of a second over four miles. 
That's quicker than you can blink. I lost to a Russian named in 
the McLaren Report who benefited from the state conspiracy. Due 
to a lack of enforcement, she and Russia have kept the medal.
    When The New York Times revealed the extent of the state-
sponsored conspiracy, my heart broke. This was a defining 
moment for all involved. A line was crossed. It erased the 
meaning of sport and the Olympics as I knew it. But I resolved 
that I had done all I could with integrity and I couldn't lose 
twice.
    But I was wrong. The IOC stripped the medals from those 
named in the McLaren Report in November 2017 and I was a bronze 
medalist. It felt like the good guy could win. But 6 weeks 
later, the day I arrived at my fourth Olympic Games, they 
announced the Court of Arbitration overturned that decision and 
gave the medals back to Russia and that athlete. I was no 
longer a bronze medalist and now had lost twice at the same 
Olympics. No one is disputing Russia's conspiracy to cheat, the 
fraud, or doping. And yet, nothing was done to protect the 
athletes or prevent this from happening again.
    I don't know how, in light of all the evidence presented, 
that there was no accountability held. All of the virtues I was 
taught to hold above all else were left standing alone, without 
support, seeming no longer valuable to the Olympic movement--
and it scares me.
    As an athlete, I've done all I can. I compete with 
integrity. I represent my nation. I will continue to do so with 
honor and show gratitude for the opportunity to represent my 
nation.
    It seems clean athletes like myself have no choice but to 
turn to you, the leaders of our nation, for help. We need help 
protecting the ideals that passed from my father to myself and 
the things that children are raised believing to inspire them 
to a lifetime of dedication and self-belief, the self-belief 
that creates American heroes.
    So thank you for your time. I'm sorry for the tears.
    Mr. Cardin. Well, you know, thank you for the moments you 
gave to our country. We can only imagine how hard the work is 
to train and to be at your best, and to know that you're a 
winner but for the doping it's not been recognized. It's very 
difficult. But we're very proud of you sticking to your 
principles and doing everything you could to represent our 
nation with great pride and dignity. So thank you very much.
    I'm going to turn the gavel over to Dr. Burgess. As I said 
earlier, there are votes currently on the floor of the U.S. 
Senate and then there's the hearing with Secretary of State 
Pompeo, so I will not be able to return. But I want to thank 
all of you for participating in this hearing. This is an 
extremely important hearing and we appreciate your 
participation.

 HON. MICHAEL C. BURGESS, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Burgess. Thank you, Mr. Chairman. I'm just proud to 
know you have votes on the Senate floor from time to time.
    Mr. Cardin. [Laughs.] It happens every once in a while. Not 
too often.
    Mr. Burgess. And my apologies to the witnesses. We had 
votes on the House floor called right before the top of the 
hour.
    Chairman Cardin has already called the meeting to order. 
And let me just pause from your statements. I have a statement 
that I'm going to make. And if we're joined by any other House 
members we'll allow them an opportunity to make their 
statements as well.
    This commission is mandated to monitor compliance with 
commitments freely undertaken by the participating States of 
the Organization for Security and Cooperation in Europe, given 
the size and scope of the Russian state-run doping program and 
the rampant corruption corroding the integrity of international 
sport, we are compelled to speak out and to take action. In May 
2014, Ms. Yuliya Stepanova, who we are pleased to have with us 
today, appeared on German TV and blew the whistle on Russian 
state-run doping program. This led to the formation of an 
independent commission through the World Anti-Doping Agency, 
which investigated Ms. Stepanova's claims and found that a 
deeply rooted culture of cheating exists in Russia.
    The fallout of this report in Russia eventually led Dr. 
Grigory Rodchenkov, fearing retaliation from President Putin, 
to flee Russia for the United States, where he revealed an 
astonishing amount of data and detail on Russia's state-run 
doping program that he accumulated while the head of the Moscow 
anti-doping lab. A New York Times expose laid bare the 
unprecedented extent and complexity of an illegal program that 
sought to swing many international sports in favor of the 
Russians. This was accomplished through an elaborate scheme 
which involved numerous Russian state agencies, including the 
Russian Ministry of Sport and the FSB, the successor to the 
former Soviet KGB.
    From 2011 to 2015, over 1,000 Russian athletes in 30 sports 
benefited from the coverup operation, to the detriment of 
athletes who were not so involved. President Putin himself 
ordered the state-run doping program in order to drum up 
support for oppression at home and aggression abroad. To 
President Putin, international sport is not a competition 
between skilled individuals but a geopolitical tool equal to 
Russia's use for corruption in energy availability and 
disinformation to influence other states and the population at 
home. Those who attempt to challenge this state-run apparatus 
are fighting a losing battle. It is only thanks to 
whistleblowers like Ms. Stepanova and Dr. Rodchenkov that we 
have any idea of the enormity of the Russian state-run doping 
operation.
    The World Anti-Doping Agency, while it has done what it 
can, has a budget of $30 million a year, and is going up 
against a well-funded state conspiracy. Moreover, after years 
of mounting evidence, the only significant action taken by the 
International Olympic Committee has been the suspension of 
Russia from the Pyeongchang Olympic Games, a suspension that 
has already been lifted. In addition, Russian athletes were 
still allowed to compete under the Olympic flag. As was written 
in The Economist: ``The World Anti-Doping Agency is wielding a 
knife in a highly charged arms race. Even when it finds clear 
evidence of systematic doping, as it did in Russia, there is no 
guarantee that the International Olympic Commission will act on 
it quickly or decisively.''
    Clearly, a new approach is needed to counter this method of 
authoritarian influence.
    That's why I, along with my fellow commissioner from Texas, 
Sheila Jackson Lee, introduced the Rodchenkov Anti-Doping Act. 
This act would criminalize doping at international competitions 
in which the United States participates, so as to provide a 
deterrent against those who would engage in doping fraud. It 
would put every Russian doping facilitator on notice that their 
name may appear in a U.S. indictment should they attempt to 
defraud athletes in the future.
    We have already heard some of the testimony from a 
distinguished panel today, who will provide valuable insight 
into the state of international sport and what can be done to 
counter corruption and state-run doping. We are particularly 
pleased to have with us today Mr. Travis Tygart, the CEO of the 
U.S. Anti-Doping Agency, or USADA. Mr. Tygart has led the USADA 
through some of its most impactful efforts to keep 
international sport free of doping. It has been notably 
instrumental in Operation Raw Deal, one of the largest 
international steroid busts in history, as well as the 
investigation of the BALCO labs conspiracy, in which the San 
Francisco lab supplied performance-enhancing drugs to 
professional athletes. Mr. Tygart also led the agency's 
investigation in the U.S. Postal Service pro-cycling team 
doping conspiracy and spearheaded the publication of the recent 
decision in the Lance Armstrong case.
    Next, and I think we've already heard from, is Katie 
Uhlaender. Ms. Uhlaender is a U.S. Olympian who has won five 
medals at the International Bobsled and Skeleton Federation. 
She has won three bronze medals, a silver medal, and in 2012 a 
gold medal--winning her first skeleton world championship. She 
has also won the Women's Skeleton World Cup twice. 
Congratulations on your victories. We are grateful to have you 
represent us and the United States of America at the Olympics.
    Following Katie, Yuliya Stepanova will share her 
experiences with us. Ms. Stepanova is a world-class Russian 
athlete and an anti-doping whistleblower. Vitaly Stepanov, her 
husband, is a former employee of the Russian Anti-Doping Agency 
and witnessed firsthand the Russian state doping program. Mrs. 
Stepanova bravely began collecting evidence by recording 
conversations with fellow athletes and coaches and uncovered a 
large-scale doping fraud. Yuliya and her husband currently 
reside in the United States after receiving death threats. We 
thank you and your husband for your courage to speak out.
    Dagmar Freitag, who we are very honored to have with us 
today, will provide her perspective from the German Bundestag. 
Ms. Freitag is the chairwoman of the Sports Committee and is an 
expert in combating doping at both national and international 
levels. She has been part of the Bundestag since 1994 and 
became chairwoman of the Sports Committee in 2009. Most 
recently, Ms. Freitag has become the deputy chairwoman of the 
German-U.S. Parliamentary Friendship Group. Ms. Freitag, we are 
grateful for your being with us on this side of the Atlantic 
today.
    Finally, we will hear from Jim Walden, the attorney for Dr. 
Grigory Rodchenkov. Unfortunately, Dr. Rodchenkov himself is 
unable to be with us here today due to the ever present threat 
of Russian retaliation against him. Mr. Walden is a partner at 
Walden, Macht & Haran. He participated in a Helsinki Commission 
briefing on the Russian state doping program back in February 
and has been a constant source of insight on these issues. 
Thank you for being here and representing the doctor today.
    Again, thank you all for being here and participating this 
afternoon. Let me recognize the exalted chairman for life of 
the Helsinki Commission--[laughter]--Chris Smith of New Jersey 
for his opening statement.

HON. CHRISTOPHER H. SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. I want to thank Dr. Burgess for his opening and 
for his leadership. He also is the chair of the Health 
Committee for Energy and Commerce. So nothing happens in the 
area of health care without that man taking a lead on it. So we 
thank you for that leadership, which has been extraordinary.
    Welcome, everyone. Athletic doping obviously is really a 
low. That anyone can cheat in a competition and then take any 
satisfaction or pride in winning is really beyond 
comprehension, to say nothing of the profound unfairness of the 
other competitors and fans and damage to the sport itself, but 
state-run doping compounds these injustices with serious human 
rights violations. It naturally leads to pressuring athletes to 
dope and threatening the whistleblowers. I want to thank Yuliya 
Stepanova and Dr. Grigory Rodchenkov, represented here today by 
Jim Walden, for their remarkable courage in revealing the 
Russian Government state-run doping program, as well as they 
have done.
    It is not only the rest of the world, but Russia itself is 
indebted to them. In blowing the whistle on what their 
government was doing to cheat in international sporting events, 
they acted as true patriots. For any country, it is better to 
lose a medal than to lose the country's honor. This state-run 
doping campaign is totally unworthy of the great spiritual 
heritage of Russia, and takes something away from every Russian 
person, as it makes it impossible for them to take an honest 
and natural pride in their country's performance in sporting 
events.
    Since this hearing addresses globalized corruption in 
sport, I would like to mention a whistleblower who is not here 
with us today, Dr. Xue, a Chinese doctor who worked with 
China's Olympic team in the 1980s, and at one point served as 
the chief medical supervisor to the Chinese gymnastic team. Dr. 
Xue claims that 10,000 athletes--let me say that again--10,000 
athletes were involved in a Chinese state-run doping program 
during the 1980s and 1990s. They had to accept the drugs, she 
says, or ``face punishment or criticism.'' She adds, ``If you 
refused to dope, you had to leave the team.'' She also 
discussed the abhorrent practice of doping young athletes, as 
young as 11 years old, resulting in devastating physical 
effects. Given the extent of the program, she concludes that 
all medals won by China at this time should be returned.
    Like too many whistleblowers, however, she has been forced 
to flee her home for fear of retaliation. I would note, 
parenthetically, in addition to the Helsinki Commission I also 
chair the China Commission. We have raised these issues at 
hearings in the past. Again, the price that she has paid is 
huge, but she nevertheless has been a whistleblower. She has 
commented, ``Anyone against doping damaged the country, and 
anybody who endangered the country now sits in prison in the 
PRC.'' She is now seeking asylum in Germany. It would be a 
terrible thing if her claim were to be denied and she is forced 
to return to China. As we are greatly honored by Dagmar 
Freitag, a German member of the Bundestag and chairwoman of the 
Bundestag Sports Committee, who is with us today, I would also 
ask her to check into the good doctor's fate, particularly in 
this asylum claim.
    And I yield back to my distinguished chairman.
    Mr. Burgess. Thank you, Mr. Chairman. And thank you for 
being here today, Mr. Chairman. Since we had votes on the House 
floor, Chairman Cardin had actually called the hearing to 
order. And I came in as Ms. Uhlaender was finishing her 
statement. Of course, we have your written statements, but who 
else has already provided statements? If either of you would 
just summarize for Chairman Smith and I just the key points 
from your testimony of which you want us to be aware, and then 
we can hear from the other witnesses. Mr. Tygart, why don't we 
do to you first?
    Mr. Tygart. Without re-reading my testimony, I think the 
key points are obviously that it's well known Russia corrupted 
the games and international competition like we've never seen 
before. The International Olympic Committee, as well as the 
World Anti-Doping Agency, didn't handle it effectively in our 
opinion, most importantly, because they're conflicted. It's the 
fox guarding the henhouse. You can't both promote and police. 
The IOC had an interest in the decision to sanction or not the 
Russia state-sponsored doping and chose not to put any 
meaningful sanctions in place.
    It's time to act. These sports organizations are beyond the 
long arm of most jurisdictions. And it's time to act and ensure 
that athletes like Katie Uhlaender and their rights are 
protected in a more effective way, and that these types of 
totalitarian states don't get away with corrupting the games 
that we love and cherish so much.
    Mr. Burgess. Thank you. And thank you for recapitulating 
that. Ms. Uhlaender, again, I came in as you were finishing 
your testimony. And I appreciate that it was significantly 
emotional for you. But if there are any points you want to 
recapitulate for Chairman Smith and myself.
    Ms. Uhlaender. Thank you so much for the opportunity to do 
that. I'll try to do it without tears this time.
    I'm a four-time Olympian. My father was a Major League 
Baseball player who instilled all my virtues and ethics and 
perseverance and approach to life, essentially. One of the most 
memorable moments I remember him telling me about is when he 
played with the Big Red Machine in 1972. And he was on his way 
out to the field, and a teammate gave him the opportunity to 
take a performance-enhancing drug. And he said: ``When you're 
at your best, it's enough. We're at the World Series.'' That 
lesson, to me, was that the substance you give, your grit and 
the effort, are where the glory lies. The results and the 
medals are the those that are supporting you and helped you get 
there.
    I don't know if you know this, but I missed a medal by 
four-hundredths of a second in the Sochi Olympics. I missed 
that medal to a Russian athlete named in the McLaren Report who 
benefited from the conspiracy. And yet, despite all the 
evidence that no one is disputing--everyone seems to agree 
there was a conspiracy to cheat, there was doping, and there 
was fraud, but there's no accountability. She currently still 
holds the medal, along with Russia.
    However, the process in which this has unfolded has been 
extremely dramatic. I lost once, and I had resolved that I 
couldn't lose twice. Then the IOC stripped the medals from 
Russia in November 2017. So I was a bronze medalist. And for a 
second, I thought that the good guy had won. I had missed the 
opportunity to stand on the podium and say thank you to all 
those that supported me and helped me get there. But in the 
end, it felt like we had won something bigger than just a 
medal. But that was short-lived.
    The day I arrived at the Olympics in South Korea, they gave 
the medal back. They overruled that decision. I have to say, 
that was a gut punch. It felt worse than the first time, 
because it crushed the spirit of sport for more than just 
myself. What concerns me the most is that there are policies 
and rules in place. Everyone agrees the rules were broken, but 
nothing has been done about it. I don't understand the lack of 
enforcement.
    I think that this is a pinnacle moment in history where the 
athletes like myself are having to turn to the leaders of our 
government and ask for help to enforce these rules. The reason 
why it's so scary is I look at examples of the youth and junior 
athletes. If there are no consequences to doping, what's to 
stop Russians or another nation from forcing young athletes to 
dope that changes the course of their lives forever, with no 
consequence to the sport? But once they're done, there's no one 
to protect their lives. There's no one to explain to them that 
what they're doing is hurting themselves.
    By Russia keeping the medals, it scares me. No 
accountability. No protection. And nothing to stop it from 
happening again. So thank you for the opportunity to discuss 
this and uphold the ideals that my father taught me, and also 
that create American heroes.
    Mr. Burgess. Well, thank you so much for being with us 
today and, again for reprising the testimony. And I'll 
apologize for Chairman Smith for being late. He'll never do it 
again. [Laughter.]
    Mr. Smith. We did have votes.
    Mr. Burgess. We did have votes.
    Yuliya Stepanova, you have not testified yet. We have 
written testimony. Are you wishing to give a statement? Please 
proceed.

 YULIYA STEPANOVA, WORLD-CLASS RUSSIAN ATHLETE AND ANTI-DOPING 
                         WHISTLEBLOWER

    Ms. Stepanova. Thank you very much for inviting me to share 
with you some of my journey as an elite track and field athlete 
inside of Russia's doping system, and now a whistleblower 
hoping to make sport clean. I would like to begin by 
apologizing about my past. Unfortunately, I cannot change my 
past. I was in the Russian doping system. I cheated and now I 
am talking about it. When I was 14 years old, I watched the 
2000 Olympics. When watching Russian athletes compete, I looked 
at them as gods, as people out of this world. They were my 
heroes and I wanted to represent my home country just like 
them.
    I started training competitively when I was 17 years old. 
When I was 20, my coach started giving me testosterone. That's 
where it began. I was soon doing EPO injection, taking oral 
Turinabol, and more. In the spring of 2012, I started to feel 
pain my thigh. The pain got stronger every day, but I kept 
training. Soon, I had to stop running as it was painful to 
walk. My coach wanted to help me recover faster and advised me 
to do infusions with Creatinol-O-phosphate sodium and Mydocalm.
    So I infused the substances. Shortly after, my heart rate 
started to increase rapidly. My heart was beating stronger and 
stronger every second. I was scared. The ambulance came, and 
they injected something to get my heart rate down. I survived 
the effect of these drugs. After this, I was scared to do 
injections on my own.
    Today, I still have health problems after using all these 
substances. My ferritin level is 20 times more than it should 
be, and I have a stone in the right buttock from doing iron 
injections the wrong way. Doctor said that my training helps me 
to use extra ferritin from my body, but when I stopped I have 
to find a solution or I could die from iron poisoning.
    When in the beginning of 2013 I was facing a ban, Vitaly, 
my husband, offered me a choice. I could act like most of my 
teammates did--cry and continue to listen to the lies of the 
Russian sports officials--or we could try to fight the system 
together. The Russian doping system does not hate people that 
stay in this system and get caught. It hates people that fight 
the system. We decided to fight it. We are now traitors to 
Russia, but we know we are doing the right thing. From the 
beginning, it was our hope to get more people to tell the 
truth, but we understand those that do not become 
whistleblowers, as the fight against corruption in Russian 
sports is not easy.
    You will lose your job, your career, and fear for your 
life. You will be called a liar and a traitor. I could never 
imagine that we would get this far in raising our concerns 
about the doping situation in Russia. We were not able to find 
much support inside of Russia, but we were happy to see that 
most Russian sports officials were not right. Not every 
country's goal is to cover up doping use of athletes of their 
own country. In fact, rules do matter and ethics matters in 
sports. We are glad that the problem in Russian sports is being 
discussed globally and the fight is not over yet. The best part 
for us was to learn that there are people that care about fair 
competition. We just wish those people were louder and 
stronger.
    I believe that criminalizing doping and strongly punishing 
those that cheat in Olympic sports is a necessary step to make 
sports better. We, as parents, deserve to know that our 
children that participate on any level of competition are in 
safe hands and gaining positive and ethical experiences. Sports 
officials, coaches, managers, doctors, and anyone that decides 
to take advantage of our children, the Olympic values and anti-
doping rules, must be strongly punished and banned from sports 
for life.
    Thank you.
    Mr. Burgess. Thank you, Yuliya. Thank you for your powerful 
testimony.
    Ms. Freitag, let's turn to you next. And you're recognized 
for an opening statement, please.

  DAGMAR FREITAG, CHAIRWOMAN, SPORTS COMMITTEE OF THE GERMAN 
                           BUNDESTAG

    Ms. Freitag. Chairman Burgess, Congressman Smith, ladies 
and gentlemen, thank you for inviting me. It's my pleasure to 
be part of this hearing which focuses on strategic and legal 
approaches to fight globalized corruption and doping in 
international sport. My presentation, my remarks are based on 
my personal and professional experiences gained as member of 
the German Parliament, as chairperson of the Sports Committee, 
as longstanding vice president of the German Track and Field--
that means Athletics Federation--and member of the Authority 
Board of Germany's national anti-doping agency.
    Ladies and gentlemen, the reputation of international 
sports organizations is simply disastrous. Doping, bribery, 
manipulation--all this massively damages the integrity of 
sports and undermines its values. In simple words, we must 
stand up to international rule breaking. As we witness global 
sport bodies failing to protect the sports they represent, we 
as politicians--from my point of view--have to set up an 
effective framework, regulated by law. By doing so, take the 
lead to fight the various threats in sport.
    Sport and sports organizations are at least, more or less, 
unable to protect themselves. And I think this should not go 
unmentioned, in most cases they are recognizably unwilling to 
do what they could do. Moreover, we have to face the fact that 
some sports organizations protect or even blackmail cheating 
athletes. One of the worst examples was former President Lamine 
Diack in his term of office in the IAAF, the International 
Association of Athletics Federations. When the Russian doping 
system was uncovered, the International Olympic Committee, IOC, 
showed, from my point of view, a significant lack of 
leadership.
    But even those organizations that are willing to take every 
step necessary to fight doping and corruption in sport at some 
point have to realize that their means are simply limited. Not 
only resources--for example, the number, intensity, and 
intelligence of doping tests may be limited. They simply don't 
have the tools state prosecutors and police bodies have. To 
make it clear, to root out doping and corruption in sport, not 
only international cooperation but also national laws are 
useful and necessary.
    Just to name a few examples, referring to the doping cases 
of Marion Jones or Lance Armstrong, USADA and the U.S. law 
enforcement agencies have really done a great job uncovering 
the network behind the athletes. It could become a great 
success, as existing U.S. laws allow close cooperation between 
authorities and the USADA. U.S. legal authorities used the 
Racketeer Influence and Corrupt Organizations Act to uncover 
FIFA's various corruption cases.
    Ladies and gentlemen, for many reasons I support the 
proposed bill, the Rodchenkov Anti-Doping Act. From my point of 
view, it's a major step forward in the international fight 
against doping. Let me point out two important aspects. Section 
7, statute of limitations, defines that no civil suit may be 
brought unless brought within 10 years after the offense was 
completed. As urine and/or blood samples are frozen or stored 
for up to 10 years and can be reanalyzed, it is consistent that 
the limitation period does not go below. Should the IOC, the 
World Anti-Doping Agency, or whatever organization extend that 
period, it might be useful, of course, to mirror that progress 
in the law as well.
    I also recognize that retaliation shall be unlawful. We all 
know about individuals who were put under pressure, for 
example, and forced to keep secrets. Some of those who resisted 
and testified became outlaws in the world of sports. We have to 
protect brave whistleblowers, like Yuliya, and penalize 
individuals who threaten or retaliate, but let me also mention 
that I suggest to supplement the definition of doping fraud.
    Section 3 defines that a doping fraud means the use of any 
performance-enhancing drugs. In my understanding, it does not 
include manipulation of blood and blood components, chemical 
and physical manipulation, or gene doping, named as M1, M2, and 
M3 in the WADA's listing of prohibited methods. Section 3 also 
defines that the list of performance enhancing drugs shall be 
specified by the secretary of health and human science on the 
basis of scientific and international sports standards. From my 
point of view, it might be more useful to refer to the World 
Anti-Doping Code and the prohibited list.
    Ladies and gentlemen, fighting doping, manipulation, 
bribery, for example, in sport is a global challenge, and can 
only be effectively counteracted by implementing and executing 
legislation. I'm pretty sure that athletes would think twice 
about doping if they would risk going to prison because of 
that, compared to just a temporary ban from sport events. Being 
imprisoned makes really a difference.
    Ladies and gentlemen, some final remarks. In some 
countries, anti-doping regimes are far more vigorous than in 
others. Though the discussion is really not new, we are still 
facing a worldwide discrepancy in anti-doping legislation. We 
also have to globally promote coordinated anti-doping 
legislation as a response to counter the threat of cheating. 
There are several efforts on the political stage. I know a 
variety of international declarations and resolutions targeting 
the protection of integrity and good governance in sport.
    Ladies and gentlemen, let's continue this fight. Let's do 
our very best for the sake of the clean athletes. It's really 
time to act.
    Thank you very much.
    Mr. Burgess. Thank you, Representative Freitag.
    Mr. Walden, were you planning on giving an opening 
statement? Can I ask you to suspend for one moment, and we've 
been joined by Sheila Jackson Lee of Texas, and did you wish to 
give an opening statement?
    Ms. Jackson Lee. I will go after him, Mr. Chairman. Thank 
you so very much.
    Mr. Burgess. OK. All right. Mr. Walden, please proceed.
    Mr. Walden. Chairman Smith, Representative Jackson Lee--let 
me turn my mic on so you can hear me.
    Mr. Burgess. Good plan.

JIM WALDEN, PARTNER, WALDEN MACHT & HARAN LLP AND ATTORNEY FOR 
                     DR. GRIGORY RODCHENKOV

    Mr. Walden. Thank you very much for having me here. I've 
been honored to consult with the Helsinki Commission during the 
drafting of the Rodchenkov Anti-Doping Act of 2018. I know, 
because I spoke to him just today, that Dr. Rodchenkov very 
much wishes that circumstances were different, and he could be 
here with you. But he wanted me to make sure to convey his deep 
gratitude for the meeting he had with you, for the seriousness 
with which this committee has taken this subject, and for your 
leadership against doping fraud.
    So let's be clear. When we talk about doping, the 
commission is absolutely right to consider this doping fraud. 
It's doping fraud because you heard the words from Ms. 
Uhlaender, who was defrauded from her medal. The IOC doesn't 
give purse money for medals, but many countries--including the 
United States--does. And Ms. Uhlaender could not qualify for a 
U.S. purse because she was cheated from her medal. Ms. 
Uhlaender cannot get lucrative endorsements because she was 
cheated of her medal. And sponsoring corporations put millions 
of dollars into sponsoring the Olympics. They all have anti-
doping provisions in their endorsement contracts and they are 
defrauded as well. I don't need to tell this commission that 
these frauds matter.
    Who should be protecting against all of this criminality? 
Unfortunately, as we've heard from other panelists, that job 
has fallen to weak self-policing by the International Olympic 
Committee and other international federations that have neither 
the tools nor, frankly, the will to address the long-standing 
and well-known problem. In fact, some of them are conspirators 
themselves. Dr. Rodchenkov disclosed that Russia paid hundreds 
of thousands of dollars in bribe money to the International 
Biathlon Union in order to cover up Russian doping. That 
evidence, together with other evidence, has now led to a major 
investigation, headed by criminal authorities in Germany, 
Austria, and Norway. And the head of the IBU has now been 
forced to step down.
    But, thankfully, even though we've been faced by weak-kneed 
responses by the IOC and other international federations, other 
countries have stepped into the breach, passing their own anti-
doping laws and creating criminal penalties. Italy, Austria, 
France, and recently Germany have been leaders. And, frankly, 
the Austrians have been extremely aggressive, convicting two 
top sports managers and one team doctor for engaging in a 
doping conspiracy. But I certainly agree with the Helsinki 
Commission that the time is now for the U.S. to enter into a 
leadership position.
    And it's not merely because doping victimizes athletes like 
Ms. Uhlaender and corporations--although that's reason enough 
to pass this bill. It is because doping fraud is just another 
mechanism for global animosity toward the United States and, 
more importantly, the affliction of widespread criminality 
because, as Ms. Freitag said, doping fraud is just one part of 
the criminal bundle that you get with doping fraud. You get 
racketeering. You get drug dealing. You get bribery. And you 
get other forms of corruption, including most recently hacking 
which, as you know, Fancy Bear inflicted not just on athletes, 
but on WADA itself during WADA's investigation, and leaking 
information that they thought would help Russia.
    Now, there are some in our government who refuse to 
confront Russia for its abject criminality. But simple decency 
compels us to enhance and enforce legal rights and remedies to 
protect clean athletes. After all, doping fraud is just one 
more export of the gangster state that Vladimir Putin has 
created in Russia. And despite the fact that the world has not 
stood up to the well-documented and well-known crimes of the 
Russian Federation, thankfully the Helsinki Commission has. And 
this bill gives American prosecutors, clean athletes, and 
whistleblowers the tools that they need to protect the rest of 
us from these evils.
    Quite clearly then, the Rodchenkov Anti-Doping Act fills a 
very important void, giving the Department of Justice long-
armed jurisdiction for the first time to do what other laws and 
regulations simply can't do. And of special note, making 
retaliation against whistleblowers in sports a criminal 
offense, and affording them remedies through civil process, is 
simply a game changer. It will allow other whistleblowers to 
come forward so that other acts of corruption can be exposed to 
the sanitizing rays of sunlight.
    If the commission will, to close, I'd like to read a short 
statement directly from Dr. Rodchenkov that he gave me this 
morning:
    ``Again, I wish to apologize to the world for my part in 
the Russian state-sponsored doping system. During the time I 
ran the Moscow lab, my orders came from the top of the Russian 
Federation. Putin said, Russia must win at any cost, and the 
Sports Ministry executed that command by substantially 
improving our ability to administer performance-enhancing drugs 
in secret. To refuse to go along would have been a death 
sentence. I hope that my difficult decision to come forward and 
tell the truth will lead to continuing reforms. I believe the 
Helsinki Commission's leadership is critical. And I fully 
support the proposed legislation. I am humbled and grateful 
that the bill is named after me. And I hope I can continue to 
be a force for good.''
    Thank you.
    Mr. Burgess. Thank you, Mr. Walden. Please convey our 
thanks to Dr. Rodchenkov as well.
    And we're pleased to recognize Sheila Jackson Lee of Texas.

 HON. SHEILA JACKSON LEE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Ms. Jackson Lee. Mr. Chairman, thank you very much.
    Today, more than any other day, I'm pleased to be a 
Helsinki Commissioner and to respond to the call that is an 
international call, but it is a call for humanity. I'm 
delighted to join Dr. Burgess in co-sponsoring legislation 
named after Rodchenkov and his years of, I would say, pain, 
without him knowing it, and now his effort to remedy, to fix, 
to make amends, to have a reformational change.
    I want to acknowledge the witnesses first, before I begin. 
Thank you, Jim Walden, for indicating Russia's place in all of 
this, and reading the doctor's letter that indicated that 
Russia believed they must win no matter what, and for those who 
refused it was a death sentence. Maybe even those in the clinic 
or lab, but as well maybe even the athletes. It is important to 
take note of Mr. Tygart, who represents us on the U.S. Anti-
Doping Agency. We thank you for your service.
    And, again, thank you to Katie Uhlaender for, first of all, 
representing your nation and doing the very best that you 
could. For us, you are a medal winner. And thank you for being 
here today. Let me thank Yuliya Stepanova, who doped and has 
now come forward to admit, along with her husband, that she is 
part of the reformation of international athletics, and 
certainly the Olympics. And I thank you to Ms. Freitag, I 
believe, for the words that you have offered us by saying that 
we have to get even stronger on these issues.
    It is amazing. I think everyone sitting here--my 
colleagues, our Senate colleagues--everyone considers 
themselves a sports aficionado. And even if they did not play, 
they take on the armor or the image of athletes who are 
performing. Sometimes professional sports was--many of you 
know, I'm sure you've seen video of Americans looking at their 
professional sports team--but then, of course, there is a 
special love for our amateur athletics, because there's a sense 
of patriotism and sacrifice that these young people make.
    So doping fraud is a crime in which big money, state assets 
and transnational criminals are involved and honest athletes 
and sponsors are defrauded and abused. Nowhere is this clearer 
than in the Russian doping scandal, where agents of Russia's 
FSB, the successor of the Soviet KGB, and other state agencies 
colluded to systematically cheat the Olympics over the years. 
That's why I am pleased to join Dr. Burgess in the legislation 
that we've introduced. As discussed in the Oscar-winner 
documentary, ``Icarus,'' they did this to shore up support for 
Putin's kleptocratic regime, which steals in Russia and spends 
in the West, all while engaging in acts of blatant aggression 
against its neighbors.
    Athletes caught up in doping fraud stand to lose out not 
only on their life's ambition, but also on the prize money and 
sponsorships that sustain their livelihood. Because I'm a 
strong supporter of young people no matter what country they're 
in, I would offer to say that athletes, if left to their own 
devices, want to be honest and competitive. And so I consider 
in some instances the Russian athletes as victims as well. We 
need to help the whole international arena.
    Take the case of Alysia Montano, a U.S. runner who competed 
in the 2012 summer Olympics. She finished fifth, with two 
Russian women in the first and third. These women were later 
found to have engaged in doping fraud by the World Anti-Doping 
Agency, WADA, which means that Ms. Montano had rightfully 
finished third. She would have medaled. She estimates that 
doping fraud cost her maybe half a million dollars, if you look 
at rollovers and bonuses. And that's without outside 
sponsorship maybe coming in. She adds, ``That's not why you're 
doing it, but you still deserve it.''
    Then there is the simple emotional aspect of being told, 
only years later, that you were cheated out of your victory. In 
the case of a U.S. bobsledder, Steve Holcomb, he was not even 
around to see it, having died before his two medals were 
upgraded from bronze to silver. His teammate, Steve Langton, 
commented: It's definitely a little bittersweet that Holcomb 
isn't here to see this happening. He worked hard, and he earned 
those medals. It would have been very nice if he had a chance 
to enjoy them.
    I'm grateful to have Katie Uhlaender here with us today. 
And I appreciate your story. I'm also grateful for Ms. 
Stepanova, and Mr. Walden as well. We thank Ms. Stepanova for 
her bravery. And again, as I indicated earlier, I hope that 
many more Russian athletes--but I know that they too might be 
considered victims. And we hope that your courage will allow 
them to come forward. We thank the doctor for the work that he 
has done, and Mr. Walden for the work that you have done with 
him. He is a courageous individual. He is whistleblowing--his 
whistleblowing has strengthened the global fight against 
corruption in international sport and elsewhere. We hope our 
legislation will be an anchor in the United States to protect 
him.
    We hope that many others who know the ins and outs of 
Putin's corrupt system will come forward. We thank you for 
acknowledging the Helsinki Commission. In our last visit to the 
Helsinki Commission international meeting in Berlin, Germany--I 
can assure you that the U.S. delegation was very strong on 
these issues, among others. But certainly countries from around 
the world were aware of the work we need to do in this area.
    My fellow commissioners and I have set out to stop the 
injustices occurring to athletes and to protect whistleblowers 
with the Rodchenkov Anti-Doping Act--hoping I've gotten his 
name somewhat close. This long overdue piece of legislation 
establishes criminal penalties and civil remedies for a doping 
fraud at major international competitions. It also prohibits 
retaliation against whistleblowers. And it is unfortunate that 
such legislation has become necessary. But I would say that 
it's vital that it pass as soon as possible. International 
sports bodies have proven time and again that they're not 
adequately able to investigate and deter doping fraud. I hope 
we give them a green light--and maybe a red light to stop what 
they are doing, and a green light to make changes. Doping fraud 
should matter to any sports fan and anyone who cares about fair 
play. I welcome the fact that we are having this hearing. I 
hope that this will be an inspiration to the House and the 
Senate to pass this legislation as quickly as possible.
    I do want to make one point on the record, and that is that 
we know that there is an opinion piece that has circulated that 
offers an individual's perspective on Dr. Rodchenkov. I would 
only say that most of what is in the opinion case is in the 
public forum, is in the documentary--which was well-received 
with many awards. It is a difficult journey for whistleblowers. 
Sometimes they do not get the flowers that they deserve. Every 
opinion writer has the right to express his or her opinion. 
That is the nature of our nation and the freedom of speech. But 
I am glad that we have a whistleblower who was willing to step 
in, maybe in jeopardy of his life. And I'm glad to be with 
Members of Congress who will step in and speak to Russia 
forthrightly and without fear, maybe where it has not been done 
in other spaces.
    So the opinion piece is there. Our work is continuing. And 
we are delighted to be able to move this legislation forward in 
a bipartisan manner. And I feel confident that we will work 
with our colleagues, and they will see the importance of this 
legislation to move it as quickly as possible. And I thank the 
chairman for yielding. And I thank you, Dr. Burgess, for 
joining us on this legislation.
    Thank you.
    Mr. Burgess. I want to thank the gentlelady from Texas. 
And, again, thanks to our witnesses for being here today.
    We'll move into the interactive portion of the hearing, the 
question and answer. Let me turn first to Chairman Smith for 
questions.
    Mr. Smith. Thank you, Chairman. I appreciate it, Dr. 
Burgess.
    Thank you, again, for your tremendous testimonies and your 
courage to be here. But, more importantly, to raise your voices 
knowing that especially back in Russia there is a retaliation. 
And so we're all very grateful for your willingness to be so 
candid and upfront here in Washington.
    Let me just ask a couple of questions. So much of your 
testimony anticipated, I think, what we would want to know. And 
I thank you for the comprehensiveness of those testimonies. We 
all know that Lance Armstrong was tested like 250 times. And 
when he was detected he said it was inflammatory. And it 
somehow got out from under each and every time. The new drugs 
we believe were designer drugs, maybe you can elaborate on 
them--are they designed to be undetectable? And if you could 
just tell us what those drugs are, how they work, and how do 
they become undetectable? And are there strategies to surface 
them and make them detectable so that in a very systematic way 
we can know whether or not they're being taken?
    What are the risks to athletes who take these drugs in the 
short, intermediate, and long term? We know that in the past 
there's been much talk about suicide, heart attacks, 
miscarriages, children who suffer disabilities. Chemicals are a 
dangerous thing when they're not used properly or when they 
carry agents or substances that have a very deleterious long-
term effect. Could you elaborate, if you would, on what the 
individual athlete experience is? How they're out of the 
limelight, how they have to suffer in private as they get sick.
    And if I could ask Ms. Freitag, if you would--I mentioned 
Xue Yinxian earlier. She is the one who exposed about 10,000 
athletes, in her estimation, in China who were part of the 
state-run doping process. She sought asylum in Germany last 
year. We know she hasn't gotten it yet. Do you have any 
insights or if you could check into that to see if she could, 
again, receive that asylum so she could be protected?
    And finally, in the spirit of the Magnitsky Act, which we 
have pushed very hard in this commission, I'm always worried 
about the athlete who is not drugging, who is part of a 
national team, who then gets blacklisted and cannot participate 
because she or he is part of a team that has coaches and others 
who are doing the wrong thing. And along those veins, should 
they be allowed to participate if they are indeed clean? And 
also, what about the coaches? I mean, that's where you really 
throw the book at them, and all the bureaucrats in the 
government level who have committed these crimes and, again, 
caused people to not win where they would have won who are not 
doping--and we heard riveting testimony on that. So if you 
could speak to that, whether or not a Magnitsky approach needs 
to be looked at here even more where we go after the 
perpetrators and the abusers, but hold harmless those who are 
athletes, in this case, who have not doped?
    Mr. Tygart. Was that directed at me, sir?
    Mr. Smith. Yes. Anyone who'd like to go first. Please go 
ahead.
    Mr. Tygart. Yes, well, I'll take a couple and then defer to 
you all as well. Yes, listen, I think as far as new drugs on 
the market, athletes who want to cheat and have no moral 
compass and will willingly go down that path want to find the 
cheapest drug that will maximize performance and reduce the 
chance they get caught. And so as pharmaceutical companies 
continue to put drugs on the market, we at USADA and anti-
doping have to ensure that our tests are able to----
    Mr. Smith. And what are those drugs?
    Mr. Tygart. Peptides right now. Very serious problem. We've 
got amendments to the Controlled Substance Act that we're 
trying to push through that will deal with SARMs, selective 
androgen receptor modulators, which you can walk into a sports 
nutrition store and buy right now. They ought to be controlled. 
They're not legal in the United States. They're going through 
the NDA process. And they're just as potent, if not more 
effective, for building muscle mass as any other drug. We can 
test for them, so I don't worry that our elite athletes are 
using them. I worry that kids, frankly, are using them, and 
parents are walking into nutrition stores to buy them to give 
to their kids to make them better. And they will make them 
better, there's no doubt about it. And the toxic side effects 
that those have are also very concerning.
    On the Magnitsky Act, I'm glad you raised that. I think in 
addition to some of the other concepts we've talked about here 
today, and assume will talk about further, an easy amendment to 
the Magnitsky Act, excuse me, would be to ensure that it 
encompasses the type of corruption that we're talking about 
here. Now, we believe there's an argument it currently does, 
and that many of those that perpetrated this fraud could be 
listed under the current test of the Magnitsky Act. But a 
simple thing would be to make it really clear, that if you 
corrupt international sport from a doping standpoint, doping 
fraud standpoint, then there's a mechanism already in existence 
where we could add those people to the Magnitsky Act.
    Mr. Smith. If you would yield for one second--Magnitsky is 
about gross violations of human rights. I was talking about a 
Magnitsky-like approach, where those athletes who are not in 
any way, shape, or form doping get blackballed and cannot be 
part of the team, because they have been summarily told: That 
team does not participate. I'm thinking of those Russian 
athletes who may not be doping. I mean, should they be broad 
brushed, and so they should not participate either?
    Mr. Tygart. Yes, listen, I think the system has to be held 
to account. And when it's so ingrained in the system, it's 
unfair on the balancing test whose rights are more important--
the clean athlete from a country competing against a clean 
athlete from a country where we don't know whether or not they 
participated for sure in the system. You have to tip to the 
clean athlete from a country that had no system in place, I 
think. That said, certainly an individual assessment--which 
several of the sport federations have done--is a fair way to 
resolve that particular case. We would say to those clean 
athletes certainly we're compassionate for them, care for them. 
We would hope they would take the steps like Dr. Rodchenkov has 
done and like Yuliya has done to stand up and fight against 
their system, to ensure that the system is dismantled from 
within as best as we possibly can.
    Mr. Smith. You know, and on these designer drugs, the new 
ones, does anybody have a clue as to how--what the consequences 
are to the athlete, particularly long term, intermediate term?
    Mr. Tygart. Yes and no. I mean, many are manufactured 
overseas, and come in through supplements where 90 percent of 
the ingredients are coming from Asia, and the quality control 
is not very good. The NDA that I mentioned earlier on SARMs, 
Ostarine, we've talked to the developer of that. And at certain 
doses, it's highly toxic. And it's why we think it should be 
put on the controlled substance act as quick as we possibly 
can, to ensure that it's off store shelves and can't be 
reasonably bought as a fraudulent supplement, as it's currently 
being sold as.
    Mr. Smith. Katie, did you want to speak?
    Ms. Uhlaender. Oh, I was wanting to comment on your 
question of what to do about the athletes in Russia that may 
not be doping. And I would hope there would be some. However, 
from my perspective, having dedicated 15 years of my life to 
the Olympic movement, I signed up for the best testing 
possible. And the USADA does a fantastic job of regulating us. 
And until this instance came up, I had no idea that other 
nations did not follow the same processes. And I think that 
this highlights the instability of the enforcement of the rules 
that are out there. And this is where you guys, the leaders of 
our nations, can come in, as well as looking to Germany and 
what they've established, and how we rise those rules up and 
make them enforceable.
    I mean, I guess they tried. But, again, there was so much 
evidence presented and nothing was done. And to your point, 
those athletes that may not be doping had to either walk away 
from the sport or risk their lives. That's an infringement not 
just on the athletes who are clean, but also the ones that were 
forced to dope.
    I'm concerned, and I think many athletes are, for the 
protection of our rights, not just doping, but who's going to 
protect the state from abusing power? And I think that there 
are multiple reasons why the systems and processes that Germany 
is establishing could be a good model for us all.
    Mr. Smith. Thank you.
    Ms. Freitag?
    Mr. Burgess. Would the chairman yield to me for one moment?
    Mr. Smith. Yes, of course.
    Mr. Burgess. And I was intrigued because Ms. Stepanova's 
testimony referenced a compound that I was not familiar with, 
Turinabol.
    So through the miracle of ``Dr. Google,'' I Googled it and, 
oh, my gosh, the website that came up, the stuff you can buy, 
Chairman, it is absolutely unbelievable. And this compound was 
one that was actually used by East Germans back in 1962. And it 
had very potent anabolic muscle-building activities, but 
limited androgenic or male hormone activities, which is one of 
the reasons that it was so ideal for this purpose.
    I thank you for bringing that to our attention. I mean, I 
had no idea that that was even out there. And now I've opened 
up an entirely new world and probably alerted the NSA to the 
fact that I'm purchasing bodybuilding steroids.
    But thank you, Mr. Chairman. I'll yield back to you.
    Mr. Smith. Ms. Freitag.
    Ms. Freitag. Yes. Thank you. I would like to give a few 
remarks about the consequences of doping. You already mentioned 
German experiences, especially in the former GDR. In the early 
1960s, they started a state-run doping program. And up to 
today, we in reunified Germany now are facing the consequences 
of the state doping programs.
    We passed a special law in order to give some financial 
support to those victims of doping in the former GDR because we 
have, more or less, Gepler's [ph] recording of what the 
athletes were administered. They wrote down everything, so we 
know a lot about it.
    But what I do not want to forget to mention, many of those 
former athletes died an early death. Many of them are facing 
severe health problems. And the worst case you really can 
imagine happened to a young female shot putter named Heidi 
Krieger. She was administered so many male anabolic steroids 
like testosterone and things, so today he lives as Andreas 
Krieger.
    It's simply impossible to understand what happened to that 
young woman due to those people who did not care for everything 
they did to that young woman. And Andreas Krieger today is one 
of the best witnesses of what doping can affect to young 
bodies, be it female or male young athletes.
    And another question was about the coaches. Yes, I think we 
have to look at the whole entourage of the athletes. It's not 
only the coaches. It's medical doctors, of course. It's the 
dealers who provide them with doping substances. And our German 
anti-doping legislation also focuses on the entourage of the 
athletes. It's not only the athletes that are in the focus. And 
I think it's important to point out that they are responsible 
at least as much as the athlete who says yes or no.
    You see, in Western democracies, athletes more or less have 
the chance to say no. But in authoritarian states, I think--and 
I think Yuliya can say more about it--you don't really have a 
choice. Otherwise, you will have to finish your career. That's 
my impression.
    Mr. Smith. And if you could, please check into the Chinese 
athletes.
    Ms. Freitag. Honestly, not really. We know, of course, 
about people.
    Mr. Smith. No, no, would you check into Xue who is seeking 
asylum in Germany?
    Ms. Freitag. Pardon?
    Mr. Smith. If you could check into the woman who is seeking 
asylum for being a whistleblower in the People's Republic of 
China. And if she were to be forcibly repatriated, she'd go 
right to prison.
    Ms. Freitag. Well, that's typical for states like that. 
Whenever those people reenter their home countries, they will 
have to face severe consequences. I think, yes, I understand.
    Mr. Smith. The appeal is that she obtains asylum in Germany 
where she has applied for it. That would be our appeal to you.
    Ms. Freitag. Yes, you are right. I am sorry, I didn't 
understand the word.
    Mr. Walden. And, Mr. Chairman, if I may just contextualize 
one thing. I certainly share your concern about clean athletes. 
And certainly, I think, as the commission well knows, Dr. 
Rodchenkov's testimony was actually very important in 
exonerating two Russian athletes that were initially suspected 
of participating in the state-sponsored doping system, but 
ultimately were determined not to.
    The difficulty in this case is Russia's intransigence. I 
mean, after the first report came out from the World Anti-
Doping Agency, they put a roadmap in place, they put a path to 
Russia rejoining the world community. And it wasn't a 
complicated path. All they had to do was to give WADA access to 
their lab and turn over the backup data for their computers and 
turn over whatever stored samples they had. And so if there 
were a tremendous number of clean Russian athletes, you would 
think that Russia would be very happy to cooperate. Well, we're 
now 2 years later and Russia still refuses to do what it needs 
to do to comply with the roadmap, including simply admit that 
the allegations, as Ms. Uhlaender said is as plain as the nose 
on anyone else's face, just simply admit that they're true.
    And so, in a system where they're committed to lying, 
they're committed to deception, they're committed to 
gangsterism, it's very difficult for outside folks to help them 
protect their own clean athletes, assuming some still exist.
    Ms. Uhlaender. To add to that, I feel like this is a moment 
in history that's important. Because in this respect, drawing a 
line will actually create unity. And I think from what I can 
observe, Russia is a culture in which they would respect that. 
But until we draw that line, they're going to continue to push 
the limits as we've seen in multiple areas from their culture. 
So, again, I thank you for this opportunity and I ask--us as 
athletes, all of us, we're asking for your help.
    So thank you.
    Mr. Burgess. Thank you, Chairman Smith.
    I recognize the gentlelady from Texas, Ms. Sheila Jackson 
Lee, for your questions.
    Ms. Jackson Lee. Let me ask, Mr. Walden, in your 
representation, how devastating is the impact of doping on the 
losers? Meaning that an athlete wins who has doped, but behind 
those winners are losers who have much invested--their lives, 
years of training, expectations. What have you seen?
    Mr. Walden. Well, I would say that Ms. Uhlaender is 
probably in a much better position than me from my limited 
vantage point. First of all, I just want to say, again, how 
grateful we are to both Representative Burgess and 
Representative Jackson Lee for sponsoring this very important 
bill.
    But this obviously ruins lives. I mean, your comments 
before about putting aside the financial rewards, which are a 
distant second for the athletes to being deprived of the moment 
on the podium only to find out that you were cheated all along. 
And in the case of Ms. Uhlaender, having essentially been 
robbed twice. I give her an incredible amount of respect and 
admiration that she still wants to go on and win and win and 
win for the United States.
    So your question is a perfect one. And I hope it's one that 
every single representative and senator asks themselves. How 
many devastated American athletes were there after not just the 
Sochi game results were disclosed, because it wasn't just 
Sochi, it was London, it was Beijing? This has been going on 
since 1968 in Russia. And so this bill is critical in order to 
save the next generation of not just U.S. athletes, but 
athletes from clean countries that same devastation.
    Ms. Jackson Lee. You set up Katie very well. I just wanted 
to know, from your perspective, but I would like to hear from 
you on that question of how devastating it is, so people can 
understand and be on the record what the depth of commitment an 
athlete has to make to even get to the Olympics or any 
competition.
    Ms. Uhlaender. Honestly, it's intangible and indefinable to 
communicate what that is in words. But I dedicated 15 years of 
my life, and all of my adult life to sport. But I feel blessed 
that my father gave me something to hold onto, which are 
principles and virtue that helped me to understand that the 
glory is in my efforts and in that I'll represent my country 
and the people supporting me and God as well. So I try to hold 
onto that and remember that everything I do I'll earn. And then 
by continuing a path focused on those goals, so I can inspire 
others to pursue excellence.
    But I'm left with hope, hope that by doing so I can inspire 
others to stand up and define a line that would prevent someone 
else from losing an Olympic medal, and in my case twice, the 
same medal. There are no words really to describe what it feels 
like to lose the opportunity once every 4 years to stand on the 
podium and say thank you to the people that have supported me, 
that believed in me, that helped me get there, see my flag 
raised and have that moment to show them it was--I'm sorry, I'm 
getting emotional.
    Ms. Jackson Lee. That's all right. That's all right.
    Ms. Uhlaender. It's a platform that is rare. And I feel 
like I missed the opportunity to inspire others to pursue 
excellence and show my country how proud I am to represent them 
and how grateful I was to have that opportunity. That medal, in 
my opinion, wasn't mine. My glory is in my effort, honestly, 
and that was my opportunity to say thank you and earn something 
for what I believe our nation stands for.
    The Olympics inspire a virtuous character because it holds 
its participants to a higher standard than any other arena and 
it keeps it more pure--at least that's what I grew up believing 
in. And in that, that self-belief that it develops and the 
virtue, is something that could create American heroes, people 
that are dedicated to their passions and avoiding mediocrity. 
It exemplifies the best of humanity.
    And this scandal ruined all of those beliefs. It struck out 
the Olympic flame. And I'm hoping that with these discussions 
and the leadership of our country that we can help relight it.
    Ms. Jackson Lee. That was worthy of listening to you for a 
longer period of time. And forgive us if we've struck an 
emotional chord. You've struck an emotional chord in all of us. 
And those words will be very vital to our colleagues to try to 
understand.
    Let me just ask, how soon after the Olympics were you made 
aware of the doping influence, in both instances?
    Ms. Uhlaender. That answer is somewhat complicated in that 
in the season of 2015-16, in December, I was informed that 
Russia had destroyed over 1,600 samples when WADA had attempted 
to collect information at their lab. And I was in disbelief 
because I was naive. I was sure that the big people would take 
care of it because integrity is what we all believe in, that's 
the Olympic spirit.
    And then when The New York Times revealed the depth of the 
conspiracy, the lengths that the country went to ensure that 
they would win, my heart literally broke, because not just me, 
but all of my competitors in that race can never get that 
moment back. We dedicated our lives to that moment, to fair 
competition. And I have to say there is nothing more 
exhilarating than the best in the world standing up to the line 
and just saying ``see you at the bottom.''
    But to know that that competition was tainted, to know that 
it was not what any of us thought it was, and then on top of 
that the evidence and everything that had happened had been 
presented and there was nothing done about it. So I found out 
about it in 2015. I was temporarily a bronze medalist from 
November 2017 to February 2018. And now I'm back to fourth.
    Ms. Jackson Lee. You are a remarkable young woman, and 
thank you so very much.
    Let me just, if I might, Mr. Chairman, indulge Ms. 
Stepanova.
    If I could ask you a question. Thank you for being here. I 
think you have heard Ms. Uhlaender's comments. And we are 
appreciative of your presence. And so, would you share with us 
the importance of leaders stopping doping, cleaning up 
competition? And how much pressure are on Russian athletes or 
other athletes to participate in doping?
    Thank you so much for being here.
    Ms. Stepanova. In Russia, I believe there is a culture of 
doping. Russian athletes all believe that all athletes around 
the world use prohibited substances. They believe you cannot 
achieve a medal without prohibited substances.
    Nobody pushes you physically to use prohibited substances, 
it's more social, psychological. When I started to compete, I 
started to hear about prohibited substances from other 
athletes. And my coach told me many stories how when he was an 
athlete, he used prohibited substances. And it was, like, 
people all around me spoke to me only about prohibited 
substances, about how they were the way to prepare for winning 
medals, not about other ways, like other ways don't exist.
    Ms. Jackson Lee. Did you know it was illegal or wrong? Was 
there any discussion in Russia that it was wrong, it was 
unfair? And did they tell you that everyone in the world used 
it, or you knew that other people did not?
    Ms. Stepanova. When I was in Russia, I only met athletes 
who used on the Russian team. I didn't meet any clean athlete 
who could say that ``I never used and I got this medal because 
I never used.'' And Russian athletes, they don't feel like 
they're doing something wrong because they believe all athletes 
around the world do the same.
    Ms. Jackson Lee. Are you glad or do you believe we should 
stop doping and fix it around the world?
    Ms. Stepanova. From my experience, when I was in Russia, I 
also believed that all athletes used it, because of what I saw 
around me, I only saw athletes who were using. But when I 
decided to try to and fight it with my husband and I started to 
meet athletes from other countries, I started to meet clean 
athletes and I started to believe yes, clean athletes exist. 
And I'm glad that I have enough courage to tell the truth 
because it's not easy to tell truth about yourself, about how I 
cheated.
    Ms. Jackson Lee. Well, your courage is, as well, amazing 
and powerful. We thank you. We hope--and my last question to 
you, and just one more question, Mr. Chairman, to the 
representative from Germany--but I want to let you know how 
much we appreciate it. And do you think we could ever get 
Russia to stop doping in its athletic programs?
    Ms. Stepanova. I hope, but I know it's not easy. It's not 
easy to change minds. It should be started from the top, 
because if it started from the top and they'd start to really 
fight this doping, athletes would stop doping. I believe it.
    Ms. Jackson Lee. If Mr. Putin had a different attitude and 
expressed that nationally, it would stop.
    Ms. Stepanova. Yes, I think so.
    Ms. Jackson Lee. Thank you for your courage.
    Ms. Freitag, there is an important point in the bill about 
protecting whistleblowers in the legislation. And I want to 
know from you how important that is in highlighting doping 
around the world if we, the United States, has in its 
legislation protecting whistleblowers and how much we should 
try to push such legislation internationally.
    Ms. Freitag. Thank you for the question. I think protecting 
whistleblowers belongs to the most important points in the 
whole case. Without people like Yuliya and her husband or Mr. 
Rodchenkov, we would not know, we by far would not know enough 
about the state-run doping system in Russia. And they were the 
ones who started to reveal it. There were journalists from 
Germany, from Great Britain as well who worked into the case. 
But without those whistleblowers, we wouldn't know what we have 
to know.
    And we only can fight doping successfully if we know as 
much as possible. And that is why the protection of 
whistleblowers worldwide is an important issue. And that is why 
I support the proposed bill because, among others, it focuses 
on that.
    And maybe allow me one or two more remarks to your question 
No. 1, the impact of doping on the loser. Of course, I cannot 
say it so emotionally like Katie because she had the personal 
impact, but from my time in the German Athletics Federation, I 
have had many conversations with athletes who got their medals 
maybe 10, 12 years later. Some of them found their medals in 
the mailbox without anything.
    We have a German shot putter, a female German shot putter 
who told me she had been upgraded 13 times, not only to the 
medal rings, but maybe from positions, seven to five or so. But 
13 times, imagine what that means for an athlete.
    I would have lost all the motivation to go on competing. 
And these athletes are the ones we as politicians should fight 
for. We should do it together and we should do it on our 
national levels. And then we can encourage young people to do 
top-level sports. Otherwise, why should they do that if the 
fear to be cheated is so big that you say what should I do that 
for? We need those national heroes as role models for our young 
people, but they must have a chance to reach their goal, the 
Olympic dream, like Katie said.
    Thank you.
    Mr. Burgess. And thank you for your time and questions. I'm 
going to have to draw your time to a close. I've got a House 
Rules Committee that's coming up very, very quickly.
    Ms. Jackson Lee. I just want to thank you very much and 
also indicate we should work without ceasing to get the 
legislation passed.
    Thank you very much.
    Mr. Burgess. Yes. There actually are a couple of questions 
that I would like to get in.
    And we've heard, of course, about Russia. And Chairman 
Smith brought up China, and East Germany in the 1960s, so other 
countries have been involved. So what are the signs and 
symptoms that a country is involved in this? Are there are any 
tripwires that should have been evident to other members of 
perhaps the International Olympic Committee that this requires 
additional scrutiny? It does seem a little unfair to push it 
all off onto the athletes. So does anybody have any thoughts on 
that?
    Yes, Mr. Tygart?
    Mr. Tygart. Two points. First--and it's not related 
directly to that question, but I'll come back to that--while we 
sit here and listen to athletes who have been abused by a 
state-run doping system, hear the obvious emotional story and 
heartfelt feelings from someone whose dream's been crushed, the 
corporations, 8 of the 13 for the United States, are the top 
sponsors of the International Olympic Committee paying $25 
million each. And the sport leaders who oversaw this program 
are not here. We need to hold them accountable. We hear 
crickets from them and that's something that we should 
seriously address.
    Mr. Burgess. But let me ask you: Is there some indication, 
some sign or symptom that those groups should see as a red flag 
that there is a problem here?
    Mr. Tygart. If someone, if a country is winning, you look 
at Russia's 2010 winter games placement at seventh and then 
immediately went to number one at home in 2014, all of us said 
this is not being done by athletic skill alone.
    Mr. Burgess. Okay.
    Mr. Tygart. So you can go down the list of winners in 
countries, and it's a generality, and look at those countries, 
and we've done it. Who are running effective programs to ensure 
athletes from those countries are showing up at those 
international games?
    Mr. Burgess. All right, that's valuable. Thank you.
    Katie, you wanted to say something?
    Ms. Uhlaender. Yes. I just attended the executive board 
meeting of WADA and the Global Athlete Forum with them. And 
they recently developed the CRC, which is the Compliance Review 
Committee, where they have created standards that all 
international federations and countries are meant to stand by.
    And I think--did USADA have a part in that?
    I think that the USADA and Germany, like other nations, are 
following those rules. And right now, it's a matter of finding 
a way to get all of the nations to be compliant.
    And I think Travis has a great idea. If we have governments 
on the board instead of sport leaders, it would eliminate the 
conflict of interest. There are rules and policies in place 
that seem like they would work. And the CRC would be 
transparent, open to the public, making recommendations to the 
board through another independent investigations committee.
    And I think right now, from my objective perspective, I 
would just want to know if it's possible for our government to 
get involved or others to make it enforceable and actually 
create unity that the Olympics are meant to, instead of having 
individual sports, as Travis is pointing out, have investments 
with sponsors or other conflicting interests that have dollar 
signs as a priority over the movement.
    Mr. Burgess. I think that's what we're going to find out.
    Yes, Mr. Walden?
    Mr. Walden. Yes, Representative Burgess, just to answer 
your question another way, WADA also publishes, and has since 
2013, published yearly statistics of anti-doping rule 
violations. And if you look at that report, you can look at the 
top 10, there's not a lot of movement in the top 10. I would 
say that wherever you're in the top 10 of all nations, that is 
a huge red flag.
    For the last 3 years, Russia has been the leader in anti-
doping rule violations by a wide margin, but there are some 
other countries in there that at least seem to have the 
earmarks of a systematic problem, whether or not they have a 
state-run doping system.
    Mr. Burgess. Can you tell us those countries?
    Mr. Walden. I don't want to.
    Mr. Burgess. OK.
    Mr. Walden. I don't have it off the top of my head and I 
don't want to falsely accuse someone. Sorry.
    Mr. Burgess. Fair enough, sure. I got it.
    Ms. Uhlaender. I also competed in Olympic weightlifting. I 
competed in the 2012 Olympic trials and trained under Zygmunt 
Smalcerz, who is a 1972 Olympic champion. And he pointed out to 
me one day at training, you can go onto the Junior Olympic site 
where all weightlifting athletes are juniors and the number of 
athletes that were testing positive among certain countries was 
staggering. And that was also the aspect that scared me so much 
because those athletes could take a 4-year ban at 14 years old 
or at the Youth Games, even younger, and then come back and 
have a full career. But then after they're done, when the state 
is done with them, athletes like those that Ms. Freitag 
encountered, are then dying early and facing severe health 
consequences for those actions that they didn't fully 
understand when they were participating in them.
    I believe that there are statistics and data that we could 
collect. It's just I think we need or--I'm not really a part of 
it, I'm a participant--but, like, the government could assist 
in data collection and analyzing it.
    Mr. Burgess. Let me just ask you a question. I am a 
physician by background and, obviously, know about the 
intersection of the medical community with this. And I realize 
there are different jurisdictions in different countries, but 
surely there are some country or, in our case, state licensing 
boards, specialty societies. I mean, is there no accountability 
to the physicians that were involved in this?
    I mean, in Ms. Stepanova's case, it almost sounds like 
child abuse. I mean, that seems punishable by criminal statute 
in this country. Am I missing something here? Is the medical 
community not allowed to step up, are they fearful of stepping 
up, or are they just a too-willing a participant here?
    Mr. Tygart. Well, I would just say, in the U.S., certainly, 
if we have jurisdiction over them and they participate and we 
have the evidence, we'll bring cases. And that's, you know, a 
key primary effort of ours to hold them accountable. And then 
we have also made referrals to the licensing boards in various 
states of doctors who knowingly participated in this type of 
behavior.
    But on an international scheme, of course, they can be held 
under the sport rules. But whether or not their own countries 
have those types of bodies that can withdraw their license is a 
question for each one of those countries, I think.
    Mr. Burgess. Ms. Freitag?
    Ms. Freitag. Yes, maybe an additional remark. In Germany, 
the medical doctors who take care of our athletes have to sign 
a special paper that they are deeply committed to clean sports. 
And every year, the sports federations have to report to the 
government about their efforts in the anti-doping fight. And 
whenever we as members of the sports community would have the 
feeling they are not complying to what we want them to do, we 
could reduce the amount of money, for example, they get from 
the state for their work.
    And I think this is very interesting. The medical doctors 
are a key toward clean or dirty sports. And yes, that is why we 
should have a look. And our legislation says, whenever a 
medical doctor is involved in doping cases, they will be 
punished as well.
    Mr. Burgess. And I think that's critical. I mean, you 
referenced those difficulties in East Germany in the early 
1960s.
    And, Katie, obviously you've experienced some problems.
    But, Yuliya, oh, my gosh, I mean, your story is just beyond 
compelling. And I just can't tell you how badly I feel for you 
and that that was administered at the hands of someone who had 
taken an oath only to heal. And they harmed you and that's 
wrong.
    And I hope whatever else happens that the medical community 
acknowledges to the extent that there's complicity in this and 
that they put a stop to it. I think it's on them to do so.
    So you've all been very generous. It's been really a very 
emotional afternoon. I appreciate you sharing with us.
    As you can see from the testimony of Ms. Jackson Lee and 
Mr. Smith, this is something that--to answer your question, 
Katie--we're going to find more out, we're going to find out if 
we can do this. I was skeptical myself when it was brought to 
me. Can we even do this? But we will find out.
    And it is clearly important. And the commitment that exists 
now from having had this very powerful afternoon, it is even 
stronger, at least in this commissioner.
    So thank you very much. We're going to stand in 
adjournment.
    There may be a few additional questions that the Helsinki 
Commission has for each of you as witnesses. And if you receive 
those questions, I would ask you to respond promptly.
    And thank you for your participation this afternoon.
    We'll stand in adjournment. Thank you.
    Mr. Tygart. Thank you.
    [Whereupon, at 4:01 p.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared statements

                              ----------                              


Prepared statement of Hon. Michael C. Burgess, Commissioner, Commission 
                 on Security and Cooperation in Europe

    This hearing of the Helsinki Commission will come to order.
    Good afternoon and welcome to this Helsinki Commission 
hearing titled ``The State of Play: Globalized Corruption, 
State-Run Doping, and International Sport.'' I would like to 
thank Chairman Wicker for making this hearing possible.
    The Commission is mandated to monitor compliance with 
commitments freely undertaken by participating States of the 
Organization for Security and Cooperation in Europe. Given the 
size and scope of the Russian state-run doping program and the 
rampant corruption corroding the integrity of international 
sport, we are compelled to speak out and take action.
    In 2014, Ms. Yuliya Stepanova, who we are so pleased to 
have with us here today, appeared on German TV and blew the 
whistle on Russia's state-run doping program. This led to the 
formation of an Independent Commission through the World Anti-
Doping Agency, or WADA, which investigated Ms. Stepanova's 
claims and found that ``a deeply-rooted culture of cheating'' 
exists in Russia. The fallout of this report in Russia 
eventually led Dr. Grigory Rodchenkov, fearing retaliation from 
Putin, to flee Russia for the United States, where he revealed 
an astonishing amount of data and detail on Russia's state-run 
doping program, which he had accumulated while head of the 
Moscow anti-doping lab.
    A New York Times expose laid bare the unprecedented extent 
and complexity of an illegal program that sought to swing a 
large number of international sports events in favor of the 
Russians. This was accomplished through an elaborate scheme, 
which involved numerous Russian state agencies, including the 
Russian Ministry of Sport and the FSB, the successor to the 
Soviet KGB. From 2011 to 2015, over 1000 Russian athletes in 30 
sports benefited from this cover-up operation to the detriment 
of clean athletes.
    Putin himself ordered this state-run doping program in 
order to drum up support for oppression at home and aggression 
abroad. To him and his kleptocratic cronies, international 
sport is not a competition between skilled individuals, but 
rather a geopolitical tool, equal to their use of corruption, 
energy, and disinformation to influence other states and their 
own population.
    Those who attempt to challenge this state-run apparatus are 
fighting a losing battle. It is only thanks to whistleblowers 
like Ms. Stepanova and Dr. Rodchenkov that we have any idea of 
the enormity of the Russian state-run doping operation. WADA, 
while it has done what it can, has a budget of $30 million a 
year and is going up against a well-funded state conspiracy.
    Moreover, after years of mounting evidence, the only 
significant action taken by the International Olympic Committee 
has been a suspension of Russia from the Pyeongchang Olympic 
Games, a suspension that has already been lifted. As The 
Economist has written, ``WADA is wielding a knife in a highly-
charged arms race. Even when it finds clear evidence of 
systematic doping, as it did in Russia, there is no guarantee 
that the IOC will act on it quickly and decisively.''
    Clearly, a new approach is needed to counter this method of 
authoritarian influence. That is why I, along with my fellow 
Commissioner from Texas, Ms. Jackson-Lee, have introduced the 
Rodchenkov Anti-Doping Act. This act would criminalize doping 
at international competitions that the United States 
participates in so as to provide a deterrent against those who 
would engage in doping fraud. It would put every Putin crony 
and doping facilitator on notice that their name may appear in 
a U.S. indictment should they attempt to defraud clean 
athletes.
    Ladies and gentlemen, we will hear testimony from a truly 
distinguished panel today who will provide invaluable insight 
into the state of international sport, what can be done to 
counter corruption and state-run doping, and recommendations 
for U.S. policy.
    We are particularly pleased to have with us today Mr. 
Travis Tygart, the CEO of the U.S. Anti-Doping Agency, or 
USADA. Mr. Tygart has led USADA through some of its most 
impactful efforts to keep international sport free of doping. 
USADA has notably been instrumental in Operation Raw Deal--one 
of the largest international steroid busts in history--as well 
as the investigation of the BALCO labs conspiracy, in which the 
San Francisco lab supplied performance-enhancing drugs to 
professional athletes. Mr. Tygart also led the Agency's 
investigation in the U.S. Postal Service pro-cycling team 
doping conspiracy and spearheaded the publication of the 
Reasoned Decision in the Lance Armstrong case.
    Next, we will hear from Katie Uhlaender. Ms. Uhlaender is a 
U.S. Olympian and has won five medals at the International 
Bobsleigh and Skeleton Federation. She has won three bronze 
medals, a silver medal, and, in 2012, a gold medal, winning her 
first Skeleton World Championship. She has also won the women's 
Skeleton World Cup twice. Congratulations on your victories--we 
are grateful to have you represent our country in the Olympics.
    Following Katie, Yuliya Stepanova will share her 
experiences with us. Ms. Stepanova is a world-class Russian 
athlete and an anti-doping whistleblower. Vitaly Stepanov, her 
husband, is a former employee of the Russian Anti-Doping Agency 
and witnessed firsthand the Russian state-run doping program. 
Ms. Stepanova bravely began collecting evidence by recording 
conversations with fellow athletes and coaches and uncovered 
large-scale doping fraud. Yuliya and her husband currently 
reside in the United States after receiving death threats. We 
thank you and your husband for your courage to speak out.
    After Yuliya, Dagmar Freitag, who we are very honored have 
with us today, will provide us her perspective from the German 
Bundestag. Ms. Freitag is the Chairwoman of the Sports 
Committee and is an expert in combating doping at both national 
and international levels. She has been a part of the Bundestag 
since 1994 and became Chairwomen of the Sports Committee in 
2009. Most recently, Ms. Freitag became the Deputy Chairwoman 
of the German-U.S. Parliamentary Friendship Group. Ms. Freitag, 
we are grateful for you being with us on this side of the 
Atlantic today.
    Finally, we will hear from Jim Walden, the attorney for Dr. 
Grigory Rodchenkov. Unfortunately, Dr. Rodchenkov himself is 
unable to be here with us today due to the ever-present threat 
of Russian retaliation against him. Jim Walden is a Partner at 
Walden Macht & Haran LLP. He participated in a Helsinki 
Commission briefing on the Russian state-run doping program 
back in February and has been a constant source of insight on 
these issues since. Thank you for being here and representing 
Dr. Rodchenkov.
    Thank you all for being with us this afternoon. Mr. Tygart, 
the floor is yours.
      
      
      
      

     Prepared statement of Hon. Christopher H. Smith, Co-Chairman, 
            Commission on Security and Cooperation in Europe

    Thank you, Mr. Chairman, for convening this timely hearing.

    International sport has become deeply tainted by 
corruption. Bribery, extortion, and drug trafficking have all 
become commonplace in the world of international sport--from 
the questionable integrity of the process of awarding major 
international competitions to illegal betting. state-run doping 
is the ultimate expression of this corruption. Encompassing all 
aspects of what is wrong with international sport, state-run 
doping programs cheat athletes out of their life's work and 
their livelihoods, all to generate legitimacy for deeply 
oppressive systems.

    As always, we are extremely grateful to whistleblowers for 
revealing these corrupt systems. Today, we have one of those 
whistleblowers with us--Yuliya Stepanova, who started the ball 
rolling on the revelations regarding the Russian state-run 
doping program. We also have Jim Walden here, who represents 
Dr. Grigory Rodchenkov--another courageous Russian 
whistleblower who revealed the wide breadth and convoluted 
nature of Russia's scheme.

    I would like to mention an additional whistleblower who is 
not here with us today--Dr. Xue Yinxian, a Chinese doctor who 
worked with China's Olympic team throughout the 80s. At one 
point, she even served as the chief medical supervisor to the 
Chinese gymnastic team.

    Dr. Xue claims that 10,000 athletes were involved in a 
Chinese state-run doping program during the 80s and 90s. They 
had to accept the drugs, she says, or ``face punishment or 
criticism.'' She adds, ``If you refused to dope, you had to 
leave the team.'' She has also discussed the abhorrent practice 
of doping young athletes--as young as eleven years old--
resulting in devastating physical effects.

    Given the extent of the program, she concludes that all 
medals won by China at this time should be returned. Like too 
many whistleblowers, she has been forced to flee her home for 
fear of retaliation. She has commented, ``Anyone against doping 
damaged the country and anyone who endangered the country now 
sits in prison.'' This is common in China where dissent against 
the state and truth-telling are not tolerated. Dr. Xue is now 
seeking asylum in Germany. As we are greatly honored to have 
Dagmar Freitag, a German Member of the Bundestag and Chairwoman 
of the Bundestag's Sports Committee with us here today, I hope 
that you might be able to speak to where her asylum claim 
currently stands.

    Despite having spoken out about Chinese state-run doping in 
2012, Dr. Xue's allegations still have not been investigated by 
the World Anti-Doping Agency (WADA). I urge WADA to take all 
measures to investigate her claims as thoroughly as it 
investigated the claims of Dr. Rodchenkov. They certainly seem 
plausible. China, much like the Soviet Union and now Russia, 
has always viewed international sport as nothing more than a 
tool to demonstrate its status and awe its people into 
submission. It would not surprise me in the least to find that 
China had engaged in such practices or even that it still does.

    The scourge of state-run doping around the world must be 
fought with the full force of the law. I look forward to 
hearing from our distinguished witnesses about how we can 
achieve this.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    Thank you, Mr. Chairman, for convening this important 
hearing today.
    Russia uses all manner of asymmetrical tactics to achieve 
its goals across the world. As documented in the staff report 
of the Senate Foreign Relations Committee, Putin's Asymmetric 
Assault on Democracy in Russia and Europe: Implication for U.S. 
National Security, Putin takes advantage of any opening he can 
find to push his anti-democratic agenda--by spreading 
disinformation, manipulating energy supplies, or, most 
dramatically, by invading its neighbors and then vehemently 
denying it. His ultimate goal is to undermine the liberal 
international order that has created such prosperity and 
replace it with a chaotic free-for-all where his autocracy is 
normalized.
    International sport, too, is viewed by Russia through the 
lens of asymmetrical influence. As far back as the Soviet 
Union, sport was viewed as a way to demonstrate the superiority 
of dictatorship over democracy. One need only look at Putin's 
approval ratings pre- and post-Sochi Olympics to understand the 
value of athletic victory to autocrats--according to Gallup, 
prior to the Sochi Olympics, Putin's approval was at 54%; after 
Russia appeared to win the most medals at the Sochi Olympics, 
it sprung up to 83%.
    In the Oscar-winning documentary Icarus, Dr. Rodchenkov 
states that he believes this high approval rating was part of 
the calculus that helped Putin feel secure in invading Ukraine. 
Today, we see Putin has attempted a similar feat by hosting the 
World Cup--once again exploiting international sport to justify 
authoritarianism.
    State-run doping is a way that Russia attempts to gain an 
asymmetrical advantage in international sport. Putin has put an 
astounding amount of resources into this corrupt scheme. 
Enlisting major intelligence assets and high-level cronies, 
Russia defrauded athletes for years, cheating them out of 
accomplishments they had been working their whole lives to 
achieve.
    This systematic doping is an expression of Russia's 
weaponization of corruption. Putin uses corruption as a means 
to influence neighbors and keep his own population in check. It 
is no different for Russian athletes and international sports 
bodies. He seeks to trap all persons of influence in his 
corrupt web, making them beholden to him and enabling him to 
apply leverage as he sees fit.
    There are many ways that we can fight back against these 
tactics. We can build greater defenses against disinformation 
and cyber-attacks with our allies, diversify our energy 
sources, and sanction bad actors with tools such as the Global 
Magnitsky Act. We can also update our financial and legal 
architecture--including by criminalizing the very activities 
that Putin's spooks engaged in to pursue their state-run doping 
program as proposed in the Rodchenkov Anti-Doping Act. Finally, 
we can encourage more whistleblowers to come forward and offer 
greater protections for them.
    Though Putin would like to imagine himself the savior of 
his country, whistleblowers like Ms. Stepanova and Dr. 
Rodchenkov are the true patriots of Russia. While Putin robs 
the Russian people blind, whistleblowers expose the crimes of 
his regime. They do this under the threat of retaliation. The 
Kremlin has demonstrated time and again its willingness to 
pursue its political opponents across the world as it did most 
recently in the case of Sergei Skripal. It is abhorrent that 
whistleblowers must face such threats. But they must not be 
deterred. They are centrally important to the global struggle 
against Putin's criminal regime. The world truly owes them a 
great debt.
    I had the opportunity to meet Dr. Grigory Rodchenkov here 
on Capitol Hill and was moved by his bravery. He was forced to 
wear a mask for fear of retaliation--a terrible tragedy 
necessary because of the very real threat to his life. I now 
have the honor to meet you, Ms. Stepanova, and thank you for 
joining us today. What you have done for international sport, 
for the rule of law globally, and for Russia cannot be 
overstated.
    I look forward to hearing what you, and all our honored 
guests, have to say.

Prepared statement of Hon. Sheila Jackson Lee, Commissioner, Commission 
                 on Security and Cooperation in Europe

    Mr. Chairman, thank you very much for holding this hearing.
    Doping fraud is a crime in which big money, state assets, 
and transnational criminals are involved and honest athletes 
and sponsors are defrauded and abused. Nowhere is this clearer 
than in the Russian doping scandal, where agents of Russia's 
FSB, the successor to the Soviet KGB, and other state agencies 
colluded to systematically cheat the Olympics over years. As 
discussed in the Oscar-winning documentary Icarus, they did 
this to shore up support for Putin's kleptocratic regime, which 
steals in Russia and spends in the west, all while engaging in 
acts of blatant aggression against its neighbors.
    Athletes caught up in doping fraud stand to lose out not 
only on their life's ambition, but also on the prize money and 
sponsorships that sustain their livelihood. Take the case of 
Alysia Montano, a U.S. runner who competed in the 2012 summer 
Olympics. She finished fifth place with two Russian women in 
first and third. These women were later found to have engaged 
in doping fraud by the World Anti-dDoping Agency (WADA), which 
means that Ms. Montano had rightfully finished third. She 
estimates that doping fraud cost her ``maybe half a million 
dollars, if you look at rollovers and bonuses, and that's 
without outside sponsorship maybe coming in.'' She adds, 
``That's not why you're doing it, but you still deserve it.''
    Then there is the simple emotional aspect of being told 
only years later that you were cheated out of your victory. In 
the case of U.S. bobsledder Steve Holcomb, he was not even 
around to see it. Having died before his two medals were 
upgraded from bronze to silver, his teammate Steve Langton 
commented, ``It's definitely a little bittersweet that Holcomb 
isn't here to see this happening. He worked hard and he earned 
those medals. It would have been very nice if he had the chance 
to enjoy them.''
    I am very grateful to have Katie Uhlaender with us here 
today, who herself is a U.S. Olympian. I look forward to 
hearing your story about how doping fraud affected you and how 
it has affected international sport more generally.
    I am also grateful to have Yuliya Stepanova and Jim Walden 
with us here today. Ms. Stepanova, your bravery in coming 
forward as a whistleblower is truly admirable. I hope that many 
more Russian athletes will follow your example--it is high time 
that they realize they need not be part of this corrupt system.
    Mr. Walden, you'll recall we met with Dr. Rodchenkov a few 
months back. He is a courageous individual and his 
whistleblowing has strengthened the global fight against 
corruption in international sport and elsewhere. We hope that 
many others who know the ins and outs of Putin's corrupt system 
will come forward. Because of people like Ms. Stepanova and Dr. 
Rodchenkov, defrauded athletes at the very least know the truth 
of how they were cheated.
    My fellow Commissioners and I have set out to stop the 
injustices occurring to athletes and protect whistleblowers in 
the Rodchenkov Anti-Doping Act. This long overdue piece of 
legislation establishes criminal penalties and civil remedies 
for doping fraud at major international competitions. It also 
prohibits retaliation against whistleblowers who expose doping 
fraud and enables those whistleblowers who do experience 
retaliation to sue the retaliating party. It is unfortunate 
that such legislation has become necessary, but international 
sports bodies have proven time and again that they are not 
adequately able to investigate and deter doping fraud.
    Doping fraud should matter to any sports fan and anyone who 
cares about fair play. I welcome this hearing and this 
distinguished, international panel. I hope that this 
conversation will serve as the beginning of a global movement 
to clean up international sport, which has been infiltrated and 
corroded by corruption.

Prepared statement of Travis T. Tygart, Chief Executive Officer, United 
                       States Anti-Doping Agency

    Mr. Chairman, members of the Commission, good afternoon. My 
name is Travis T. Tygart, and I am the Chief Executive Officer 
(CEO) of the United States Anti-Doping Agency (USADA). I want 
to thank this Commission for its interest in clean sport and 
for the invitation to appear before you today to discuss how we 
can better protect the rights of athletes and the integrity of 
competition.
    It is an honor for me to be here representing the USADA 
Board, our small but talented professional staff, and clean 
athletes from across the United States for whom we advocate 
every day. It is also an honor for USADA, a 501(c)(3), not-for-
profit, incorporated in Colorado, to be a part of such an 
important discussion. We also greatly appreciate the ongoing 
support of Congress and the President's Office of National Drug 
Control Policy in our efforts to protect the health, safety and 
rights of clean athletes and the integrity of competition.
    We have arrived at a critical juncture for the soul of 
sport--a moment of truth, if you will. And today, I want to 
speak to the Commission about not only the significant and 
urgent threats facing clean athletes and fair play, but also 
about the very feasible solutions to these problems.
    First, the challenges: The truth is, fairness and integrity 
in athletic competition--two principles at the very heart of 
why we play and love sports--hang in the balance. They have 
been abused and are currently under attack. And, if we don't 
act soon to enact reforms necessary to protect the rights of 
clean athletes and to preserve a level playing field--both here 
in the United States and around the world--we will be 
committing an unacceptable injustice to today's athletes, fans, 
broadcasters and sponsors who believe in, and invest in, fair 
and clean competition; and equally intolerable, we risk 
shattering the dreams of tens of millions of young kids from 
around the world.
    You will hear from Russian world class athlete, Yulia 
Stephanov, about how a belief in a powerful dream coupled with 
a nugget of truth led her to be the first and by far most 
courageous ``whistleblower'' doing the truly unimaginable by 
standing up to Russian thugs, corruption and mafia tactics that 
overtook sport in her country. You will hear about the crushed 
dreams and lost hopes of an American skeleton athlete, Katie 
Uhlaender, who is also a victim of this corrupt Russian sport 
system and who while knowing in her heart she was a legitimate 
medalist in the 2014 Sochi Winter Olympic Games, is still being 
deprived of her rightful medal and recognition.
    As an independent anti-doping organization, we view 
athletes, like Yulia and Katie,--and their powerful stories--as 
our guiding light, our North Star. Their stories give us hope, 
they remind us of our purpose, and they provide us the fuel to 
continue to fight for their right to clean and fair 
competition.
    But, we need to ask ourselves something. And we need to be 
honest. How many more Yulias will we allow to be abused? How 
many more podium moments stolen from athletes like Katie? How 
many more medals will be handed over years after a 
competition--before we finally understand the importance of 
enforcing clean sport and fair competition? Katie and millions 
of other clean athletes from around the world who can't be here 
today . . . they are why this matters.
    Now, in order to effectively protect the integrity of 
competition, we must first understand how and why the system is 
under attack. It's because Russia's widespread, state-supported 
doping system that corrupted and defrauded international sport 
was exposed. The astounding lengths to which Russia's corrupt 
system went to deceive the world, anti-doping officials and 
other athletes, was in many ways, a nightmare realized.
    By now you've read and heard the facts: Shadow 
laboratories, tampering by Russian intelligence officers, 
samples swapped and passed through a hole in a wall under the 
cover of darkness, male DNA in female samples, and emails to 
and from the Russian Ministry of Sport determining which doped 
athletes the system would protect, and which ones it would 
sacrifice.
    The corruption has been proven to have been orchestrated 
and supported by Russian Government and sport officials within 
the Russian system. The scandal spread across 30-plus sports, 
lasting from at least 2011 to 2015. The evidence clearly shows 
at least, two Olympics Games and possibly hundreds of other 
competitions, were corrupted, failing to fully deliver on their 
promise.
    At the end of the day, despite mountains of evidence and 
vocal opposition from anti-doping groups--ourselves included--
the IOC chose not to stand up for clean athletes and against 
institutionalized doping. Instead, the IOC welcomed the Russian 
Olympic Committee to the Rio Games.
    Still attempting to recover from its failure to take a firm 
stand against corruption prior to the Rio Games and fumbling 
around with Russia's refusal to acknowledge and fix the 
corruption, shockingly the IOC eventually only suspended the 
Russian Olympic Committee for a few weeks and allowed over 160 
Russian athletes to compete in the 2018 Winter Olympic Games.
    On behalf of those we serve along with anti-doping leaders 
from around the world, we have been consistent and firm, the 
IOC missed--or ignored--a defining moment to confront, in the 
clearest way possible, the win-at-all-costs culture of 
corruption through doping in global sport. It was an 
opportunity to draw an unambiguous line in the sand; a chance 
to stand up for clean athletes--a chance to show clean athletes 
they cared, to send a message, loud and clear, that this type 
of fraudulent behavior will not be tolerated in Olympic sport. 
Yet, when the decisive moment arrived, when the lights were 
shining brightest, the IOC failed to lead.
    Certainly, history will not judge that decision kindly.
    However, out of the Russian doping scandal, two silver 
linings have emerged. The first: More than ever before athletes 
are mobilizing, voicing their opinions and fighting for a level 
playing field. And second: We have a once-in-a-lifetime 
opportunity to break through entrenched positions for the good 
of clean athletes and the future of sport. We have the chance 
to implement the reforms necessary to make sure the kind of 
state-supported doping we saw in Russia is never again allowed 
to abuse athletes by forcing them to endanger their health and 
safety to use dangerous drugs for a sport and government 
system's bad purpose.
    To get there . . . the road to reform starts with 
independence. I've had the privilege to speak to Congress 
several times before about the ``matrix of effectiveness'' for 
anti-doping programs, about the elements of an effective anti-
doping program--one armed not just to say there is ``drug 
testing'' for sport brand value purposes but to actually win 
the battle for clean athletes. In the U.S. and in many 
countries around the globe, these key elements such as, 
ensuring year-round, no-notice, out-of-competition testing for 
both blood and urine and conducting robust intelligence 
gathering and investigations, have been implemented and proved 
successful. Clean athletes can succeed when the current rules 
are implemented with determination and will to win for clean 
athletes.
    Yet, the problems which currently plague the global anti-
doping system are even more basic. The most vital principle of 
an effective anti-doping system is that it must be free from 
the influence of sport governing bodies. It must be independent 
and serious about protecting clean athletes.
    Since our founding in 2000, we at USADA have advocated for 
a clear separation between those who promote sport and those 
who police it. To do so otherwise, we believe, is to encourage 
the fox to guard the henhouse. No matter how well intended it 
might begin, it simply does not work. The conflict of interest 
is too great and clean athletes will always lose out.
    This matter of independence is without question the most 
important issue facing global anti-doping efforts today. In 
fact, it's likely the entire Russian state-supported doping 
scandal would have been exposed much sooner by the many good 
men and women staffed at the global oversight body for anti-
doping in sport--the World Anti-Doping Agency (WADA)--had its 
governance not been hamstrung by its own lack of true 
independence.
    We know now that WADA and the IOC had compelling evidence, 
from whistleblowers Yulia and Vitaly Stephanov, about 
systematic Russian cheating for several years prior to the 2014 
Sochi Winter Olympic Games. Yet, action to protect clean 
athletes only happened after the whistleblowers--frustrated by 
inaction--took their story to the media. Even then, however, it 
took persistent lobbying by clean sport advocates including 
some within WADA's own internal staff to finally convince its 
leaders to open up the initial Russian investigation which 
began in January 2015.
    The good news is that WADA's conflicted governance model 
could be easily solved by removing sport leaders from the WADA 
leadership and implementing a proper conflict-of-interest 
policy which prohibits governing members from simultaneously 
holding a governing role within a sports organization under 
WADA's jurisdiction.
    The fix for the IOC--which has experienced significant 
backlash from clean athletes in the wake of its inaction and 
poor handling of this sordid affair--is just as simple. In 
fact, we've said publicly on numerous occasions that if the IOC 
really wanted to put clean athletes and fair play first, they 
could. We believe that they could do it today.
    Since this Russian sport corruption was exposed, at least 
37 National Anti-Doping Organizations from around the world, 
with the support of athletes and others have put forth a series 
of specific proposals designed to reform and strengthen the 
global anti-doping model.
    The path forward is outlined in what has been called the 
``Copenhagen Reform Declaration.'' The reforms are simple yet 
effective and include:

    <bullet> LRemove the fundamental conflict of interest that 
exists when anti-doping decisions are controlled by sport 
organizations.
    <bullet> LStrengthen WADA through improved independence, 
transparency, and increased investment.
    <bullet> LIncrease and make clear WADA's ability to 
investigate, monitor compliance and impose sanctions, so that 
countries and organizations which engage in state-supported 
doping are held accountable.
    <bullet> LProvide the opportunity for athletes who have 
been robbed by doping to have significant and meaningful 
recognition and celebration, including the swift reallocation 
of any medals.
    <bullet> LIncrease support and protection for 
whistleblowers around the world.

    The failure of sport to do the right thing in confronting 
institutional fraud through doping and the refusal of sport to 
implement meaningful reforms has directly led us here today. 
Since sport has failed to make the basic reforms necessary to 
ensure this type of corruption never happens again, governments 
of the world that value fair play and that do not want to see 
athletes or corporations defrauded by kleptocrats should step 
up and fight back. The status quo is doomed to fail and we 
support efforts by governments and others to ensure that clean, 
true sport prevails.
    We appreciate the Commission's work to explore ways to stop 
corrupt actors that organize and facilitate doping fraud, to 
protect whistleblowers and to take meaningful action.
    We whole heartedly support the goal of ensuring corrupt 
organizations and enterprises that defraud athletic 
competitions like what the Russians did never happens again. We 
feel confident making WADA independent as discussed above will 
preserve the many effective parts of the global system that 
have worked and also cure the problems that allowed state 
supported fraud to remain secret and then go unpunished for so 
long. Likewise, as mentioned above, we and our international 
partners support greater protection for truthful 
``whistleblowers'' to encourage and incentivize them in 
speaking up and making it easier for them to obtain access to 
safe and secure living as well as to end any retaliation 
against them.
    Several of these concepts are in the Rodchenkov Anti-Doping 
Fraud Act and we support them. Additionally, we are ready to 
assist to help ensure any legislation that is ultimately passed 
is precise, effective and successful. We also are here to 
provide guidance, as appropriate, to ensure no unintended 
consequences arise that would undermine the tremendous progress 
that has been made since 2000 in advancing the interests of 
clean athletes and fair sport.
    We look forward to discussing these issues and working with 
the Commission going forward on this topic and to evolve the 
legislation to best achieve the goal of stopping criminal 
behavior in international sport perpetuated by nations and 
organizations and by protecting truthful whistleblowers.
    Mr. Chairman, members of the Committee, for those of us who 
value the rights of clean athletes and the preservation of a 
fair, safe and healthy playing field--this is our moment. As a 
global community that deeply cares about athletes' rights and 
health, we must merely find the resolve and the courage.
    The personal well-being of the next generation of clean 
athletes hangs in the balance. This is not just about elite 
Olympic athletes--this is about every kid on a playground who 
has an Olympic dream and asks ``what do I have to do to make my 
dreams come true?'' And the truth is, if we don't push, if we 
don't win, we will likely find ourselves back in this same 
position, years from now, staring another state-supported 
doping system in the face--one that has abused its athletes, 
and robbed another generation of clean athletes in the process.
    And, we will all be wondering why we didn't do more when we 
had the chance.

          Prepared Statement of Katie Uhlaender, U.S. Olympian

    Thank you for the opportunity to be here. It is inspiring 
to know the leaders of our nation are not giving up on 
protecting the rights of athletes. I am a 4 time Olympian and 
World Champion for the sport of Skeleton.
    I have dedicated my life to sprinting and diving head first 
onto a sled, hurling 80 mph down a bobsled track, with my chin 
inches from the ice. I've competed for the United States for 15 
years, and held personal growth, integrity, and character at 
the forefront of my goals and duties as an Olympian. Despite 
facing many obstacles, surgeries, financial strain, and family 
loss I kept my focus on the goals I learned from my father. My 
father was a professional baseball player, who held his 
integrity and virtuous character above all. In the 1972 World 
Series, the Big Red Machine versus Catfish Hunter and the 
Oakland A's, he was faced with the choice to take performance 
enhancing drugs, and his response was ``when you're at your 
best it's enough.''
    His lesson to me was whatever path I chose in life, what I 
give it, should be something of pure grit and all I have to 
offer. Excuses should never get in the way of success, and your 
heart in the effort is what will define it. The effort, 
integrity, and how I pursue excellence defines me more than the 
results, or the career I chose.
    I chose to be an athlete like my father; which actively 
delayed my education, career, and settling on a home. My 
decision to be an Olympian was for the challenge, the growth, 
and the inspiration that is given and received. A noble path 
that allows iron to sharpen iron; one that I believe honors my 
father's legacy, what he has taught me, my country, and God by 
giving the Olympic movement all I have. Sport is a space in 
which all races, political parties, and nations come together. 
The Olympics prominently holds their participants to a standard 
of heart and inspiration. I am an ambassador for my country, 
and for a movement that touches the world.
    I am not government funded, have very little sponsorship 
support, and there is very little money to be made by 
essentially competing on a really fast American Flyer Sled. 
None of the challenges I've faced deterred me from my dream or 
grit, I see this choice as a privilege. The dream was to one 
day stand on the podium, see the flag of the United States 
raised, and have the opportunity to say thank you all the 
people that supported me along the way. Winning a medal is the 
chance to give back to those who believed in me, to my 
community, and my country. That moment on the podium is a 
platform to inspire others to pursue excellence. The glory is 
in my effort. Any medal won belongs to those supporting our 
nation, and the quest to discover what is possible in fortitude 
and dreams.
    I fell just short of that dream to give back at the Sochi 
Winter Olympics. I missed a bronze medal by .04 of a second, 
over a distance of four miles. (Four Hundredths is quicker than 
you can blink!) I lost the bronze medal to a Russian athlete 
named in the McLaren Report, and who benefitted from the state 
sponsored conspiracy. Due to lack of enforcement, she and 
Russia have kept the medal. When I lost in Sochi, I lost with 
integrity and respect for my competitors. I did my best to 
honor all who helped me get there, despite coming up short.
    The New York Times revealed the doping scandal, the lengths 
the Russians went to cheat, and it broke my heart. So many of 
us had dedicated our lives to compete in that one moment, and 
we could never get it back.
    This was, and is a defining moment for all involved. A line 
was crossed, erasing the meaning of sport and the Olympics, for 
me and many. This intentional attack on the virtue of sport 
caused the meaning of the Olympics to change. Yet I resolved 
that I had done all I could, and I could only truly lose once. 
But I was wrong.
    The IOC ruled to strip the medals from those who had 
cheated on November, 2017 (these athletes were listed in the 
McLaren Report). This made me a bronze medalist, and it felt 
like the good guy could win! The flame of the Olympic Movement 
had been relit.
    That flame was quickly put out. The ruling was not upheld. 
The day I arrived in Korea for my 4th Olympic Games, they 
announced the Court of Arbitration for Sport had overturned 
that decision. I was no longer a bronze medalist, and had now 
lost the same Olympics twice. This time almost felt worse, it 
was a something that crushed more than my own spirit, we all 
felt it.
    How could this happen? The evidence shows Russian athletes 
were forced to choose between taking illegal drugs to compete, 
or be cast out of their life's pursuit. This is more than just 
an attack on an ideal, it's an infringement on all athlete 
rights. Essentially these athletes are forced to take dangerous 
drugs, and there are no consequences or accountability for it, 
because the athletes didn't know. What will stop Russia (or 
another country) from abusing young children or other athletes 
now realizing there are no serious consequences. Even if the 
athletes are caught, the abusing powers have no accountability 
and their nation keeps the glory.
    A young athlete can return to sport to perform even after a 
ban, at no consequence to their coaches or state. The athletes 
may not feel the health consequences until years after they 
retire. These drugs can result in serious health risks: 
shortened life span, an inability to have children, but their 
country's goals will have been met to win at all costs. There 
is more at risk here than just the broken rules of a game.
    No one is disputing Russia's conspiracy to cheat, the 
fraud, or the doping, and yet nothing was done to protect the 
athletes or to prevent this from happening again. There are 
supposed to be institutions set in place to uphold these 
ideals, and they are very well defined. I don't know how in 
light of all the evidence presented, there were no consequences 
or accountability held. The lack of enforced policy in regard 
to cheating, fraud, and doping cost the Olympic spirit 
something indefinable. All of the virtues I was taught to hold 
above all else were left standing alone, without support, 
seeming no longer valuable to the Olympic Movement, and it 
scares me.
    It seems clear that we need help with the application and 
prosecution of the rules. Russia has still not met the 
standards set before them, is refusing to turn over evidence 
from the Moscow lab. Evidence that could bring closure to many 
open cases. It is important that WADA acquires those samples. 
The Russians have already destroyed over 3,000 samples to hide 
evidence, and I worry these too will disappear. WADA needs the 
strength to investigate, collect evidence, and enforce policy 
to prevent spoliation.
    We need help in giving the organizations in place the 
ability to uphold and execute protection of sport.
    As an athlete, I have done all I can. I compete with 
integrity, represent my nation well and will continue to 
compete with honor and show gratitude for the opportunity to 
represent my nation. It seems clean athletes like myself, have 
no choice but to turn to you, the leaders of our nation for 
help. We need help protecting the ideals passed from father to 
daughter, and the things that children are raised believing to 
inspire them to a lifetime of dedication and self-belief. The 
type of belief and dedication that creates American heroes.
    A quote that also embodies why it matters to never give up 
and continue to speak truth, spread virtue, and uphold one's 
character:

``If you can keep your head when all about you
Are losing theirs and blaming it on you,
If you can trust yourself when all men doubt you,
But make allowance for their doubting too;

If you can wait and not be tired by waiting,
Or being lied about, don't deal in lies,
Or being hated, don't give way to hating,
And yet don't look too good, nor talk too wise

If you can dream--and not make dreams your master;
If you can think--and not make thoughts your aim;
If you can meet with Triumph and Disaster
And treat those two impostors just the same;

If you can bear to hear the truth you've spoken
Twisted by knaves to make a trap for fools,
Or watch the things you gave your life to, broken,
And stoop and build 'em up with worn-out tools

If you can make one heap of all your winnings
And risk it on one turn of pitch-and-toss,
And lose, and start again at your beginnings
And never breathe a word about your loss;

If you can force your heart and nerve and sinew
To serve your turn long after they are gone,
And so hold on when there is nothing in you
Except the will which says to them: `Hold on!'

If you can talk with crowds and keep your virtue,
Or walk with Kings--nor lose the common touch,
If neither foes nor loving friends can hurt you,
If all men count with you, but none too much;

If you can fill the unforgiving minute
With sixty seconds' worth of distance run,
Yours is the Earth and everything that's in it,
And--which is more--you'll be a Man, my son!''

        Rudyard Kipling, If: A Father's Advice to His Son 

  Prepared Statement of Yuliya Stepanova, Former Russian Olympian and 
                       Anti-Doping Whistleblower

    Thank you very much for inviting me to share with you some 
of my journey as an elite track and field athlete inside of 
Russia's doping system and now a whistleblower hoping to make 
sports clean.
    I would like to begin by apologizing about my past. 
Unfortunately, I cannot change my past. I was in the Russian 
doping system, I cheated and now I am talking about it.
    When I was 14 years old, I watched the 2000 Olympics in 
Sydney. I saw all the Russian Olympians as gods,--as the people 
out of this world. While watching them, I would get emotionally 
attached. I cried when they lost and felt happiness when they 
won. Back then I could not imagine that I could be one of the 
athletes representing my home country in international 
competitions and become like one of my athletic heroes.
    I started running when I was 17 years old and started 
hearing about doping from other athletes. I asked my coach, 
what is doping? He explained to me that doping is like vitamins 
for athletes. All athletes use it and if I want to run fast I 
must use it.
    When I was 20 years old, I got very sick and spent three 
months in the hospital. Even though many people around me were 
telling me that I will not be able to run again I kept dreaming 
that I will get healthy because at that time I could not live 
without running. Later, my coach told me that he spoke to the 
doctor about giving me some prohibited substances, and the 
doctor said they would probably lead to a faster recovery. 
After getting out of the hospital I slowly started running 
again and the first 6 months I was training lightly and taking 
only pills that were prescribed to help recover from 
tuberculosis.
    The following winter my coach decided to give me 
testosterone. That's where it began. I was soon doing EPO 
injections, taking oral turinabol and more. My PRs got faster 
and I became a real member of the Russian National Team. I 
didn't feel like I was doing anything wrong because everyone 
was doing it.
    The most shocking thing that I learned during this time was 
that members of the Russian National Track and Field team could 
compete completely dirty at the National Championships. So, I 
could do EPO and testosterone injections while competing in the 
national championships and then just text my urine sample 
number to the head of the Russian track and field medical 
commission and there would not be a positive test. The anti-
doping lab and the Russian Anti-Doping Agency, with the 
approval of the Russian Ministry of Sports, did not report to 
WADA about dirty samples. And there were hundreds of positives 
just in track and field that were never reported. In the end, 
the main goal was to make sure that those athletes were clean 
two to three weeks after national competitions and during major 
international competitions.
    In the spring of 2012, The Russian Track and Field 
Federation was not happy with my performances at international 
competitions because I was not winning medals. But they gave me 
one last chance. I decided that I need to train harder but soon 
I started to feel pain in the upper part of the anterior thigh. 
The pain got stronger every day, but I kept training.
    Soon, I understood that I could not continue to run as I 
had pain even when I was walking. My coach wanted to help me 
recover faster and advised me to do infusions with 
Creatinolfosfate sodium and Mydocalm. So, I infused the 
substances and shortly after, my heart rate started to increase 
rapidly. My heart was beating stronger and stronger with every 
second.
    I was scared that my heart would stop and I would die. The 
ambulance came, and they injected something to get my heart 
rate down. My heart had withstood the effects of these drugs 
and I survived. After this, I was scared to do injections and 
infusions on my own.
    Today, I still have health problems after using all these 
substances. My Ferritin level is 20 times more than it should 
be and I have a stone in the right buttock from doing iron 
injections the wrong way. Doctors said that my training helps 
me to use extra ferritin from my body but when I stop my 
training, I have to find a solution for this problem or I could 
die from Iron Poisoning.
    In the beginning of 2013 I was facing a ban. At that time, 
Vitaly, my husband, helped me to see the world through 
different eyes and offered me a choice. I could act like most 
of my teammates did--cry a little and continue to listen to the 
lies of the Russian sports officials and while being sanctioned 
continue to get paid by the Russian Police, Russian Ministry of 
Sports and Russian Regional sports organizations. Or we could 
try to fight the system together. Most athletes in Russia do 
not have such choice, as there is still not a single 
organization in Russia that truly fights corruption in sports. 
I want to continue to run and compete without doping and not 
lie and listen to lies again.
    The Russian doping system does not hate people that stay in 
the system and get caught. It hates people that fight the 
system. And we decided to fight it. We are now traitors to 
Russia, but we know we've done the right thing.
    From January 2013 until November 2014 I gained evidence by 
recording sport officials, coaches and athletes discussing the 
existing doping system in Russia. In December 2014, I gave some 
of this evidence to German investigative journalist Hajo 
Seppelt, and he made it public. In 2015, the World Anti-Doping 
Agency Independent Commission investigated the situation in the 
Russian track and field, and in November 2015, the WADA 
Independent Commission report confirmed my and my husband's 
statements and used a lot of the evidence that we provided 
them. This report helped to move things forward and Dr. 
Rodchenkov decided to tell the truth about the doping situation 
in Russia as well.
    From the beginning, it was our hope that we would be able 
to get people to tell the truth. But we understand why others 
have not become whistleblowers and are still inside of the 
system as the fight against doping and corruption in Russian 
sports is not easy. You will lose your job, your career and 
even fear for the safety of you and your family. You will be 
called a liar and a traitor if you stand up against the system, 
that unfortunately still exists in Russian sports today.
    Vitaly and I could never imagine that we would get this far 
in raising our concerns about the doping situation in Russia. 
We were not able to find much support inside of Russia, but we 
were happy to see that most Russian sports officials were not 
right. Not every country's goal is to cover up doping use of 
athletes of their own country. In fact, rules do matter, and 
ethics matters in sports.
    I am glad to say that our efforts did not go unnoticed, and 
we are glad that the situation in Russia is being discussed 
globally. We feel that we are in a fight that is still not over 
yet and we thank you for allowing us to share our story with 
you. The best part for us over the past few years was to learn 
that there are people that care about fair competition. We just 
wish those people were louder and stronger because clean 
athletes need to see it and feel it. A special thank you to 
investigative journalists and the United States Anti-Doping 
Agency for not staying away from the problem and for making 
sports cleaner not just in the USA but in Russia as well.
    I believe that criminalizing doping and strongly punishing 
those that cheat in Olympic sports is a necessary step to make 
sports better. We, as parents, deserve to know that our 
children that participate on any level of competition are in 
safe hands and gaining positive and ethical experiences. Sports 
officials, coaches, managers, doctors, and anyone that decide 
to take advantage of our children, the Olympic values, and 
anti-doping rules must be strongly punished and banned from 
sports for life.
    Thank you very much.

 Prepared Statement of Dagmar Freitag, Chairwoman, Sports Committee of 
                          the German Bundestag

    Dear Chairman Michael Burgess, Distinguished Commissioners, 
Ladies and Gentleman,
    Thank you for inviting me to Washington this afternoon. It 
is my outmost pleasure to be part of this exclusive circle of 
guests, who were asked to testify in a hearing, which focuses 
on strategic and legal approaches to fight globalized 
corruption and doping in international sport.
    My presentation is based on my personal and professional 
perspectives and experience, gained as MP in the German 
Parliament, as longstanding vice-president of the German 
Athletics Federation and member of the Supervisory Board of 
Germany's National Anti-Doping Agency.
    The reputation of international sports organizations is 
simply disastrous. Doping, bribery, manipulation--all this 
massively damages the integrity of sports and undermines the 
values it is actually supposed to represent. In simple words: 
We must stand up to international rule-breaking. I am fully 
convinced, that this systematic rule breaking can only be 
combatted successfully with systematic counterstrikes and--not 
to be underestimated--international co-operation. As we witness 
global sport bodies failing to protect the sports they 
represent, we as politicians have to set up an effective 
framework regulated by law and by doing so take the lead to 
fight the various threats in sport.
    Sport and sports organizations are unable to protect 
themselves. And--this should not go unmentioned--in most cases 
they are recognizably unwilling to do what they could do. 
Moreover: We have to face the fact that some sports 
organizations protect or even blackmail cheating athletes. One 
of the worst examples was former President Lamine Diack in his 
term of office in the International Association of Athletics 
Federation (IAAF).
    When the Russian doping system was uncovered, the 
International Olympic Committee (IOC) showed a significant lack 
of leadership and violation of the rights of clean athletes. 
The reintegration of Russia into the so-called Olympic Family 
at a much too early point--where not nearly all of the World 
Anti-Doping Agency's requirements have been accomplished--is 
not only a mistake, it is a severe attack on the integrity of 
sports and their credibility.
    But even those organizations that are willing to take every 
step necessary to fight doping and corruption in sport, at some 
point have to realize that their means are limited. Not only 
resources--for example the number, intensity and intelligence 
of doping tests--may be limited. They simply don't have the 
tools state prosecutors and police bodies have. In the case of 
suspected doping offences, police and public prosecutors can 
conduct more intensive investigations than any sports 
organization. Searching premises, confiscating possession or 
tracking financial irregularities can be conducted by official 
authorities only.
    To make it clear: to root out doping and corruption in 
sport, not only international co-operation, but also national 
laws are useful and necessary.
    Just to name some examples:

    Referring to the doping cases of Marion Jones or Lance 
Armstrong, USADA and the US law enforcement agencies have done 
a great job uncovering the network behind the athletes. It was 
a great success, as existing US laws allow close cooperation 
between authorities and USADA. US legal authorities used the 
``Racketeer Influenced and Corrupt Organizations (RICO) Act'' 
to uncover FIFA's various corruption cases.
    For several reasons I also support the proposed bill, the 
``Rodchenkov Anti-Doping Act''.
    It broadens the focus and targets doping fraud violations 
at major international competitions. From my point of view, the 
Rodchenkov Anti-Doping Act is a major step forward in the 
international fight against doping. Let me point out two 
important aspects:
    Section 7 ``Statute of Limitation'' defines that no civil 
suit may be brought unless brought within 10 years after the 
offense was completed. As urine or blood samples are frozen and 
stored for up to ten years and may be re-analyzed by accredited 
labs, it is consistent that the limitation period does not go 
below. Should the IOC, WADA or whatever organization extend 
that period, it might be useful to mirror that progress in the 
law.
    I also recognize, that retaliation shall be unlawful. We 
all know about individuals who were put under pressure and 
forced to keep secrets. Some of those who resisted and 
testified became outlaws in the world of sports. We have to 
protect whistleblowers and penalize individuals, who threaten 
or retaliate.
    But let me also mention that I suggest to supplement the 
definition of a doping fraud. Section 3 defines, that doping 
fraud means the use of any performance-enhancing drug. In my 
understanding it does not include manipulation of blood and 
blood components, chemical and physical manipulation or gene 
doping named as M1, M2 and M3 in the WADA's listing of 
prohibited methods. Section 3 also defines, that the list of 
performance-enhancing drugs shall be specified by the Secretary 
of Health and Human Services on the basis of scientific and 
international sports standards. From my point of view, it might 
be useful to refer to the World Anti-Doping Code and the 
prohibited list.
    Fighting doping, manipulation, bribery eg. in sport is a 
global challenge and can only be effectively counteracted by 
implementing and executing legislation. I am pretty sure that 
athletes would think twice about doping if they would risk 
going to prison because of it. Compared to a temporary ban from 
sport events, being imprisoned is really worrying. In some 
countries anti-doping regimes are far more vigorous than in 
others. Though the discussion is truly not new, we are still 
facing a worldwide discrepancy in anti-doping legislation.
    We also have to globally promote coordinated anti-doping 
legislation as a response to counter the threat of cheating.
    There is a variety of regional or even international 
declarations and resolutions targeting the protection of 
integrity in sports.
    In 2013 Berlin hosted the 5th International Conference of 
Ministers and Senior Officials Responsible for Physical 
Education and Sport MINEPS V.
    In the ``Berlin Declaration'' the ministers committed to 
``consider the introduction of criminal sanctions which would 
act as a deterrent against the manipulation of sport 
competitions, and against doping in sport''.
    In late 2016 the Council of Europe's Conference of 
Ministers responsible for Sport addressed the role of 
governments in the fight against doping and stressed the need 
to revise their policy where necessary.
    Just recently the Parliamentary Assembly of the Council of 
Europe adopted the Resolution 2199 ``Towards a framework for 
modern sports governance'' and called for action to foster good 
governance of sports.
    With introducing the Rodchenkov Anti-Doping Act the U.S. 
Helsinki Commission accepts these recommendations and takes an 
important step in the fight against doping. I am fully 
convinced, that anti-doping legislation is a crucial tool to 
root out doping in sports. The Rodchenkov Anti-Doping Act and 
today's hearing will support our joint efforts to serve the 
clean athletes and protect the integrity of sports.

 Prepared Statement of Jim Walden, Partner, Walden Macht & Haran LLP; 
                  Attorney for Dr. Grigory Rodchenkov

    Chairman Wicker, Co-Chairman Smith and Members of the 
Commission:
    I appreciate the opportunity to address the Commission 
about the critical need for the Rodchenkov Anti-Doping Act of 
2018, H.R. 6067 (``RADA''). The information I offer here 
derives from a number of sources, including sworn testimony 
previously submitted by Dr. Rodchenkov to the International 
Olympic Committee (``IOC''):
    As I am sure the Commission is well aware, the problem with 
organized doping fraud has not been, and cannot be, addressed 
by the current international framework and its regulatory 
bodies. Up until now, enforcing anti-doping rules has been 
largely a measure of self-policing by international sports 
organizations, such as the IOC, the World Anti-Doping Agency 
(``WADA''), and the various international sports federations. 
These organizations have proven to be ineffective at best and 
complicit or corrupt at worse. Recent events--including Dr. 
Rodchenkov's brave decision to reveal the pervasive state-
sponsored doping program in Russia--make clear that doping 
fraud in international sports competitions is also a powerful 
mechanism for larger campaigns of political aggression and 
criminal activity against the United States, including money 
laundering, bribery, fraud, drug trafficking, racketeering, 
computer hacking, and other forms of corruption. The federal 
guilty plea by Richard Lai, a former member of FIFA's Audit 
Committee, for taking $850,000 in bribes is a powerful reminder 
that many countries will do anything to win the right to host 
major competitions and to have their athletes win there. This, 
too, is true of doping fraud, as became clear when Austrian 
criminal authorities raided the headquarters of the 
International Biathlon Union in March of this year based, in 
part, on Dr. Rodchenkov's disclosures about bribes paid to 
cover-up anti-doping rule violations. In short, state sponsors 
of doping fraud generally succeed by resorting to many other 
forms of corruption, to the detriment of the United States.
    Yet, the United States and other countries who send 
athletes to participate in, and have corporations who support, 
international sporting competitions do not have a legal 
mechanism to hold aggressors accountable. Countries like 
Russia--who victimize innocent athletes, corporations, and 
financial institutions with impunity--have never been made to 
answer for their criminal behavior. Even for those few 
international sporting organizations that take doping fraud 
seriously, such as the International Association of Athletics 
Federations (``IAAF''), they lack tools to make the activity 
stop and to bring justice to defrauded victims. No legislation 
currently exists to criminalize international doping fraud or 
provide redress to victims or brave whistleblowers in the form 
of a civil remedy for damages. RADA has the potential to expose 
international criminal activity and act as a deterrent against 
those who attempt to injure our country's athletes and 
retaliate against the brave individuals who unveil the truth.
    The current international framework and its regulatory 
structure fails us in several ways. First and foremost, even 
with the best technology and ample resources, cheaters are 
difficult to catch, given the myriad ways to take performance 
enhancing drugs, or PEDs. Second, most international sporting 
organizations do not have sufficient resources and the kinds of 
technologies needed to catch the cheaters, even if they desired 
to do so. Third, most international organizations use tough 
talk about doping fraud, but their actions have been 
extraordinarily weak because of the inherent conflicts of 
interests under which they operate, as well as complicity and 
corruption. The well documented case of Russian cheating at the 
2014 Winter Olympics in Sochi is the clearest lens through 
which to see the problems with existing structures.
    State sponsored doping in Russian had, even by December 
2014, been long suspected. For example, in July 2008, the 
International Association of Athletics Federation (the 
``IAAF'') suspended seven Russian track and field athletes 
before the 2008 Beijing Olympic Games. In response, the New 
York Times observed: ``The number of suspensions, and the 
varied events involved, raised troubling questions about 
possible ineptitude or corruption in Russian drug-testing 
procedures and also prompted concerns about whether a 
deliberate, systematic attempt was made by coaches or officials 
to undermine drug-testing protocols.'' \1\ In those cases, the 
athletes were (not surprisingly) accused of tampering with 
urine samples.
---------------------------------------------------------------------------
    \1\  http://www.nytimes.com/2008/08/01/sports/olympics/
O1doping.html
---------------------------------------------------------------------------
    The questions about the state-sponsored system have been 
consistently raised (and unaddressed) ever since. When Yelena 
Soboleva and Tatyana Tomashova (elite Russian middle distance 
runners) were thrown out of the Beijing Games based on sample 
substitution at collection sites (a practice well-used within 
Russia for many years), the Chairperson of the IOC's Medical 
Commission at the time (who was also Vice President of WADA), 
Arne Ljungqvist, said: ``This does seem to be an example of 
systematic planned doping . . . .'' \2\ Thus, it was certainly 
no surprise to Dr. Rodchenkov (and should not have been a 
surprise to anyone) that--after the IOC finally re-tested 
stored urine sample from the Beijing Games-Russian athletes 
represented 36% of the new doping violations discovered in the 
reanalysis (16 of 44). \3\ It is no wonder, then, that when 
WADA published its first major report of anti-doping rule 
violations in 2013, the report found that Russia was the top 
violator, with 225 violations and approximately 20% more 
violations than second-place Turkey (with 188). \4\
---------------------------------------------------------------------------
    \2\ http://www.dailymail.co.uk/sport/olympics/article-1041882/Top-
Olympic-officialaccuses-Russian-athletes-systematic-planned-doping.html
    \3\ https://www.doping.nl/media/kb/4412/IOC-reanalysis-programme-
final-eng.pdf
    \4\ https://www.wada-ama.org/sites/default/files/resources/files/
wada-2013-adrv-report-en.pdf
---------------------------------------------------------------------------
    Then, in December 2014, a German documentary aired a hard-
hitting report containing secret recordings and official 
documents which, taken together, demonstrated clear evidence of 
systematic doping by Russian athletes. In response, WADA 
convened an Independent Commission to investigate. In two 
subsequent reports--on November 9, 2015 and January 14, 2016--
WADA's Independent Commission confirmed the existence of a 
state-sponsored doping system in Russia.
    Russia's reaction to the WADA reports was to deny and 
obfuscate, while they prepared to make Dr. Rodchenkov the scape 
goat. Dr. Rodchenkov denied them the opportunity to murder and 
blame him by escaping Russia and then disclosing the truth 
about Russia's state-sponsored doping system to the New York 
Times on May 13, 2016. What did WADA do? It formed yet another 
independent commission to investigate Dr. Rodchenkov's claims. 
In two more reports--dated July 18, 2016, and December 9, 
2016--WADA's independent commission thoroughly reviewed Dr. 
Rodchenkov's evidence, and found additional forensic evidence 
corroborating his claims that Russia systematically swapped 
dirty urine samples with clean samples during the Olympic 
Games.
    After two Commissions and four reports laden with evidence 
of the Russian state-sponsored doping system, what did the IOC 
do? Almost nothing at first. It refused to ban Russia from the 
Summer Olympics in Rio de Janeiro in 2016. It then formed two 
more Commissions to review the evidence amassed by WADA's 
commissions. Not surprisingly, both of those Commissions also 
found Dr. Rodchenkov's testimony completely credible. Still, 
even with its own Commissions having confirmed a doping-fraud 
scheme of epic proportions and byzantine complexity, the IOC 
refused an outright ban of Russia from the 2018 Winter 
Olympics, allowing Russian athletes to compete with Russian 
insignia on their uniforms and offering to lift the suspension 
so the Russian flag could fly during the closing ceremonies. 
And I am fully confident the IOC would have done so had two 
Russian athletes not been caught doping during the games, 
forcing the IOC to keep the suspension in place until after the 
games.
    During his testimony before the IOC Commissions, Dr. 
Rodchenkov presented overwhelming evidence of corruption and 
doping fraud dating back decades, including acts of bribery and 
money laundering to cover-up doping. He also disclosed Russian 
bribery to win the opportunity to host the Sochi Games in the 
first place. He disclosed the structure of the Russian doping 
system, which went straight to the top of the Russian 
Government, including the current Deputy Prime Minister of 
Russia. Dr. Rodchenkov also made clear the pervasive nature of 
the Russian state-sponsored doping program, which expanded its 
tentacles across state boundaries, financial institutions, and 
made a mockery of WADA accredited laboratories tasked with 
detecting doping. He was not the only witness to make these 
startling disclosures, but he certainly was the most important 
whistleblower with the most sweeping knowledge of the many 
Russian agencies necessary to make the scheme work, including 
Russia's secret police. And, despite the willful and extensive 
scheme and the hundreds of athletes and corporations who were 
defrauded-surely the most brazen scheme in the history of 
sports--Russia was suspended for a single edition of the winter 
Olympics and then promptly reinstated. In the meantime, dozens 
of athletes had their Olympic dreams stolen. All to say this: 
the international regulatory bodies, WADA and the IOC, who have 
been entrusted to hold counties like Russia accountable, have 
failed. As a result, cheaters--whether individual or state 
actors--who commit acts of international doping fraud have no 
fear that they will be held accountable for their actions.
    This sort of weak-kneed action and the absence of 
accountability mechanisms has only emboldened Russia, as it 
will embolden other cheaters. Indeed, throughout this saga, 
Russia has denied responsibility and sought to blame and 
retaliate against Dr. Rodchenkov. For example, on the very day 
that Dr. Rodchenkov was scheduled to be interviewed by 
Immigration officials in the U.S., Russia announced that it 
brought charges against him for alleged drug trafficking. 
Russia has harassed Dr. Rodchenkov's family, seized his 
property, and is lobbying vigorously to force his return to 
Russia, where it can silence him permanently. Despite relying 
on his testimony and finding him credible, the IOC refused to 
punish Russia or issue any sanctions. WADA alone demanded that 
Russia cease its efforts, but WADA lacks any way to enforce 
that demand. RADA directly calls for protection of 
whistleblowers, like Dr. Rodchenkov, who must be supported to 
shed light on the criminal activity that threatens the 
integrity of international sports.
    Based on my sorry experiences with the IOC, I asked the 
Helsinki Commission to consider proposing legislation to create 
a first-of-its-kind enforcement mechanism when I appeared 
before the Commission on February 22, 2018. Having reviewed 
H.R. 6067, I applaud the Commission for proposing legislation 
that could be the dawn of a new day in anti-doping enforcement. 
It provides sweeping protections for whistleblowers, like Dr. 
Rodchenkov, and thus it will encourage more such whistleblowers 
to come forward. It creates a private right of action for 
athletes who were defrauded by doping cheats. And, most 
importantly, it provides powerful criminal enforcement tools so 
that the Department of Justice can make doping fraud a true 
priority, thereby protecting U.S. athletes and corporations who 
suffer damages at the hands of perpetrators. Once dopers and 
their accomplices start going to jail, other dopers will be 
finally deterred.
    Dr. Rodchenkov asked that I make a short statement from 
him: ``Again, I wish to apologize to the world for my part in 
the Russian state-sponsored doping system. During the time I 
ran the Moscow Lab, my orders came from the top of the Russian 
Federation. Putin said `Russia must win at any cost,' and the 
Ministry of Sports executed that command by substantially 
improving our ability to administer PEDs secretly. To refuse to 
go along would have been a death sentence. I hope that my 
difficult decision to come forward and tell the truth will lead 
to continuing reforms. I believe the Helsinki Commission's 
leadership is critical, and I fully support the proposed 
legislation. I am humbled and grateful it is named after me, 
and I hope I can continue to be a force for good.''

                                 [all]






  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
